<html>
<title> - KEEPING US SAFE: THE NEED FOR A NATIONWIDE PUBLIC SAFETY NETWORK</title>
<body><pre>[Senate Hearing 111-1110]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 111-1110

                     KEEPING US SAFE: THE NEED FOR
                   A NATIONWIDE PUBLIC SAFETY NETWORK

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-255 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 23, 2010...............................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
    Prepared statement...........................................     4
Statement of Senator Klobuchar...................................     5
Statement of Senator Begich......................................    38
Statement of Senator Lautenberg..................................    40
Statement of Senator Udall.......................................    42
Statement of Senator Warner......................................    44

                               Witnesses

Steve McClure, Director, Jackson County, West Virginia Emergency 
  Medical Services...............................................     6
    Prepared statement...........................................     8
Hon. Annise D. Parker, Mayor, City of Houston and Chair, 
  Committee on Criminal and Social Justice, The United States 
  Conference of Mayors...........................................    12
    Prepared statement...........................................    13
Chief Robert L. Davis, San Jose Police Department and President, 
  Major Cities Chiefs Association................................    16
    Prepared statement...........................................    18
Chief Jeffrey D. Johnson, EFO, CFO, MIFireE, Former President, 
  International Association of Fire Chiefs.......................    19
    Prepared statement...........................................    21
Dr. Kenneth J. Zdunek, Vice President and Chief Technology 
  Officer, Roberson and Associates, LLC..........................    23
    Prepared statement...........................................    25
James Arden Barnett, Jr., Chief, Public Safety and Homeland 
  Security Bureau, Federal Communications Commission.............    28
    Prepared statement...........................................    30

                                Appendix

Hon. Olympia J. Snowe, U.S. Senator from Maine, prepared 
  statement......................................................    49
Letter, dated July 21, 2010 to Hon. John D. Rockefeller IV, Hon. 
  Kay Bailey Hutchison, Hon. John F. Kerry and Hon. John Ensign 
  from Governor David A. Paterson of New York, Governor Theodore 
  R. Kulongoski of Oregon, Governor Pat Quinn of Illinois, 
  Governor Jim Gibbons of Nevada, Governor Chester J. Culver of 
  Iowa and Governor Martin O'Malley of Maryland..................    50
Philip C. Stittleburg, Chairman, National Volunteer Fire Council, 
  prepared statement.............................................    51
The Utilities Telecom Council, prepared statement................    52
Letter, dated September 23, 2010 from Donald J. Borut, Executive 
  Director, National League of Cities to Hon. John D. Rockefeller 
  IV and Hon. Kay Bailey Hutchison...............................    58
Letter, dated September 21, 2010 from National EMS Organizations 
  re: 
  S. 3756 to Hon. John D. Rockefeller IV.........................    59

 
    KEEPING US SAFE: THE NEED FOR A NATIONWIDE PUBLIC SAFETY NETWORK

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:18 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning. This hearing will come to 
order. There are, actually, quite a few members who will be 
coming. Promptness is unusual in the Senate.
    [Laughter.]
    The Chairman. September, as they say, is when we remember. 
We remember that, nine years ago, we witnessed the horror of 
September 11. We remember that, five years ago, we watched the 
devastation of Hurricane Katrina. We remember because, even 
with the passage of time, these wounds don't heal, and the 
fears and lingers remain.
    At home, in West Virginia, we know tragedy very, very well. 
Every state does; it's not just us, alone. But, it always seems 
more painful in a smaller and more vulnerable state.
    Just this April, the nation actually joined us in the 
mourning of 29 brave souls killed in the explosion of an 
underground mine at Upper Big Branch in southern West Virginia. 
The grim reality is that in every state represented in this 
Congress, there are emergencies exactly like that, but maybe 
according to the particular industry in that state. In every 
state, the people who respond to those emergencies are the 
people that this legislation is about and the spectrum needs to 
be for.
    Nobody else can do it. You can't just sort of be a 
volunteer and run in and help, you have to know what you're 
doing. And it's hard, it's arduous, it's dangerous, people lose 
their lives. That's the deal. That's the way it happens.
    Whether they are committed by the hand of nature, these 
emergencies, or the unnatural hand of terrorism, one thing 
rings universally true: we are eternally grateful for the 
bravery of our public safety officials, and we honor those 
whose job it is to keep us from further harm. That is why I 
believe that our public safety officials are owed the resources 
they need to do their job. And, nine years after September 11, 
we should be ashamed--I am--that they lack a nationwide 
interoperable wireless broadband communications system, how 
does one actually explain that? That is yet a year away, but 
it's closing in on us, in terms of legislative possibilities, 
closing in on us very, very fast.
    That is what led me to introduce the Public Safety Spectrum 
and Wireless Innovation Act as one of the key pieces of 
legislation for me, the new Chairman of this committee.
    The legislation does two things: first, it allocates 10 
megahertz of spectrum, known as the D Block, to public safety 
to support a nationwide interoperable wireless broadband 
network that will help keep us safe.
    Second, it gives the Federal Communications Commission the 
authority to hold incentive auctions. This actually helps pay 
for the infrastructure involved in all of this. It gives the 
FCC the authority to hold this set of auctions, based on the 
voluntary return of spectrum; and these auctions, in turn, will 
provide funding to support the construction and maintenance of 
public safety's networks.
    There are three ways of funding this; we can get into that 
later. But, the point is, we can pay for all of it. We can pay 
for the whole thing.
    I believe that this approach is fair. I believe it's the 
right course. I think it's the right thing to do. I know it's 
the right thing to do. I am very passionate about it. I'm going 
to say, just before the end of this hearing, that we're going 
to have hearings on this. We're going to have hearings until we 
pass the bill. Maybe that's going to be this year; maybe that's 
going to be next year, but it's going to happen. I will not 
rest until it does happen.
    I know that some people believe there are other approaches 
to solving these problems. I will work with anyone who seeks to 
make sure that our public safety officials have the resources 
they need to communicate, to do their jobs, to keep us safe. 
It's essential to have two bands of spectrum, side by side, not 
fractured throughout the world of spectrum. They have to be 
side by side.
    I'm very grateful to each and every one of you for coming 
here, some of you from very long distances. I look forward to 
hearing your testimony. And, I thank you.
    And I always thank our Ranking Member, Senator Kay Bailey 
Hutchison of Texas, who I refer to as the Vice Chair.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. That's very 
kind of you.
    I do want to welcome all of you, because this is such an 
important issue, and particularly the Mayor of ``the'' largest 
city in my State: Houston.
    Mayor Parker, glad that you could come.
    It has been more than nine years since the tragedy of 9/11, 
and five years since Hurricanes Katrina and Rita caused such 
devastation on the Gulf Coast. More recently, Hurricane Ike and 
its huge storm surge reminded us that, in emergency situations, 
first responders and other public safety professionals need the 
best equipment available to ensure the preservation of life. 
Interoperable communications is one of those tools. And I 
notice my colleague from Minnesota. The bridge collapse there 
was such a tragedy. I know for you that this issue is also so 
relevant.
    We have all heard stories from first responders that have 
resorted to handwritten notes passed across rubble piles 
because they are using devices incapable of communicating with 
other responders or because communications networks are 
overwhelmed with traffic. We experienced this personally during 
9/11 when the Capitol shut down because the Pentagon was hit, 
and we couldn't communicate unless you had a computer. And we 
all left our computers in our offices, so it was very 
difficult. So, we know that there are issues that have to be 
addressed.
    Public safety should have the resources it needs, and I'm 
prepared to support a direct allocation of this particular 
spectrum to public safety, rather than auctioning it for 
commercial use, Mr. Chairman. But, I do believe there are 
several important questions that have to be answered in 
conjunction with this legislation.
    From a technical standpoint, I'd like to know if the 
spectrum were auctioned off to a commercial user, rather than 
allocated to public safety directly, what would the challenges 
be in allowing public safety assured priority access to use the 
commercial network in an emergency. And would there be pluses 
because you do actually have the systems in place? The FCC has 
indicated that it believes a priority access arrangement can 
meet public safety needs while allowing the spectrum to be used 
for further innovation in the commercial wireless market that 
may not be possible without the private-sector investment.
    I do think it would be useful for our members to know the 
advances in capability that the additional spectrum allocation 
would provide for our first responders. My understanding is 
that there are some critical applications a true broadband 
capability would provide, such as high-resolution image 
transmission, that will allow field personnel to communicate 
directly with offsite medical personnel to enhance field 
treatment of injuries, sort of like our battleground 
capabilities that we now have for treating injuries and saving 
lives on the battlefield.
    So, there are technical questions that I hope our witnesses 
will be able to help us sort through as we go forward on 
something that is this important and which has big 
consequences.
    The other thing that I would like to talk about is the 
funding and the funding sources. We need to make sure that we 
have the capability, if we're going to allocate this spectrum, 
to be able to have the funding to use it and to really deploy 
it. So, I think looking at alternatives for funding are going 
to be necessary for us to do our due diligence.
    So, I thank you, Mr. Chairman, for holding the hearing. And 
I am prepared to work with you to have the right bill that 
enhances the public safety communications capabilities for 
these emergencies that we face.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding today's hearing. I want to 
welcome all of our witnesses, and extend a special welcome to Annise 
Parker, the Mayor of Houston.
    It has been more than nine years since the tragic events of 9/11 
and five years since Hurricane Rita caused such devastation to the Gulf 
Coast. More recently, Hurricane Ike and its huge storm surge reminded 
us that in emergency situations, first responders and other public 
safety professionals need the best equipment available to ensure the 
preservation of life. Robust and interoperable communications is one of 
these tools.
    Stories about responders during these, and other, emergencies 
resorting to hand written notes passed across rubble piles because they 
are using devices incapable of communicating with other responders, or 
because the communications networks are overwhelmed with traffic, are 
simply not acceptable given our technical capabilities.
    We are here today to talk about this issue in a broad sense, but we 
are also here to discuss the future of a particular block of wireless 
spectrum. In particular, whether this spectrum, known as ``the D 
Block,'' should be auctioned as the law currently requires. Or, whether 
it should be directly allocated to the public safety community to be 
paired with other public safety spectrum holdings to create a 
nationwide interoperable broadband network for public safety.
    There is no question that public safety should have all of the 
resources it needs, including use of vital spectrum. And, I am prepared 
to support a direct allocation of this particular spectrum to public 
safety rather than auctioning it for commercial use, Mr. Chairman. But, 
I believe several important questions must be answered before we can 
enact legislation to do that.
    From a technical standpoint, I would like to know if this spectrum 
were auctioned off to a commercial user, rather than allocated to 
public safety directly, what the challenges are in allowing public 
safety assured priority access to use the commercial network in an 
emergency.
    The Federal Communications Commission (FCC) has indicated that it 
believes a priority access arrangement can meet public safety's needs 
while allowing this spectrum to be used to further innovation in the 
commercial wireless market. The FCC is represented here today, and I 
would like the FCC witness to address how such a framework would 
operate, and for our public safety witnesses to identify for us what 
the concerns and possible shortcomings of that approach might be.
    I think it would also be useful for members to know and understand 
the advances in capability that this additional spectrum allocation 
will provide to our first responders. My understanding is that there 
are some critical new applications a true broadband capability will 
provide, such as high resolution image transmission that will allow 
field personnel to communicate directly with offsite medical personnel 
to enhance field treatment of injuries.
    So, Mr. Chairman, there are several technical questions that I hope 
our witnesses can address to assist us as we consider legislation. But, 
I think we also have to consider whether particular proposals provide 
adequate and predictable funding to assist localities and the public 
safety community with the deployment and operation of the 
infrastructure needed to fully utilize this asset.
    I have some concerns about the focus on using proceeds from future 
spectrum auctions to fund the deployment of the public safety network. 
Congress and the relevant federal agencies have struggled to develop a 
plan for spectrum inventory and redeployment. As a result, it is 
uncertain when we will have additional spectrum available for auction, 
or how much revenue we can expect to generate through the auctions.
    Tying the availability of funds for the construction and operation 
of a nationwide broadband public safety network therefore carries 
risks. One of those risks could be that with uneven and sporadic 
funding, the public safety network is built first in larger communities 
while more rural and expensive areas to construct the network wait for 
additional funding. I do not believe that would be an acceptable 
result.
    It may be that that the reliance upon future auction proceeds 
proves to be the most practicable approach, but I believe some of the 
proposals I have seen close the door too quickly on alternative means 
of providing support to localities and public safety agencies.
    For example, we have not considered ideas like revolving loans with 
low interest rates that would allow local governments to borrow money 
at low interest rates to be paid back over a number of years. That type 
of program has been used successfully in other contexts to generate 
substantial investment with more limited up front appropriations from 
Congress.
    There are also numerous existing grant programs that support public 
safety communications programs, some of them authorized by this 
committee, and several billion dollars available through the Department 
of Commerce's broadband programs. I would like to know whether there is 
an opportunity to modify eligibility and use criteria to allow public 
safety to draw upon these programs.
    Mr. Chairman, thank you again for holding this hearing. I believe 
it is time for Congress to meaningfully address the need for a 
nationwide public safety network for the broadband age.
    Again, I am prepared to support a direct allocation of the 
remaining 700 MHz spectrum directly to public safety. But, I also 
believe that the committee has more work to do on this issue. I pledge 
to work with you, Mr. Chairman, to ensure we consider an appropriate 
piece of legislation and that the public safety community gets the 
resources it needs to execute its critical mission.
    Thank you.

    The Chairman. Thank you, Senator Hutchison.
    This vast horde of Senators that I promised you has 
actually shown up----
    [Laughter.]
    The Chairman.--in the form of Senator Amy Klobuchar. The 
Ranking Member of the relevant subcommittee and the head of the 
Subcommittee are not here.
    But, Amy Klobuchar, Senator from Minnesota, is here, and if 
she wants to say some words before----
    And then we'll start with you, Mr. McClure.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman.
    Thank you to our witnesses.
    I come here today as Chair of the 9-1-1 Caucus, along with 
Senator Burr, in the U.S. Senate, and also as a former 
prosecutor. Having seen, as Senator Hutchison mentioned, not 
only the bridge collapse, where, in fact, because of some 
changes we'd made in the metropolitan area, the communications 
there were actually precedent-setting, in terms of how well 
people were able to talk. And to think about the 57 some cars 
that were in that water, and that only 13 people died, 
tragically, many others injured, but it could have been so much 
worse if the emergency people hadn't been called in. I actually 
think it's worth looking at as a case study.
    A part of why we'd improved our communications, our 
interoperability, in Minnesota, was stemming from an incident 
where a police officer was killed in St. Paul. And, literally, 
some of the people trying to apprehend the suspect had ten to 
thirteen different walkie-talkies and phones on them, and it 
was embarrassing for our community. And, since then, with the 
help of our sheriffs, on both sides of the river, particularly 
Pat McGowan in Hennepin County, then sheriff there, we were 
able to upgrade a lot of our equipment. But what we need to do 
is to do this on a national level, as both Senator Hutchison 
and Senator Rockefeller were talking about.
    I have introduced a bill with Senator Burr and others to 
reauthorize the Federal 9-1-1 Coordination Office to manage the 
change from a voice-centric system to the Next Generation 9-1-1 
emergency response system that's based on high-speed digital 
wireless networks using Internet protocol. Next Generation 9-1-
1 is necessary, as you think of the changes to technology and 
communications, but there is also clearly more to be done with 
spectrum and other things, and I look forward to hearing from 
all of you today.
    Thank you for being here.
    The Chairman. Senator Begich, can I indulge you for a 
moment? Every fiber in my body wants to call on you to speak.
    Senator Begich. Don't do it.
    [Laughter.]
    The Chairman. That was the remaining fiber, which I was 
about to get to.
    [Laughter.]
    Senator Begich. It is not a problem with me. I see many 
witnesses, and I would prefer to hear from them right now.
    The Chairman. You're a good man.
    Senator Hutchison. You're a statesman.
    The Chairman. I'd like to introduce Steve McClure from 
Jackson County, which is a non-urban, small, and beautiful 
county in West Virginia, toward the Ohio River. He's head of 
the EMS there. Steve McClure and I had a terrific meeting about 
a week ago, I guess. Maybe a little bit more than that. And we 
talked about some of the issues we'll be talking about here, 
and the question of what happens to him. And there's sort of a 
five-minute story, which I want you to tell, because one of the 
questions in all of this is, what's the difference between a 
commercial system and a dedicated-spectrum system?
    And, without otherwise getting into your testimony, Steve 
McClure, I'm glad you're here.

  STATEMENT OF STEVE McCLURE, DIRECTOR, JACKSON COUNTY, WEST 
              VIRGINIA EMERGENCY MEDICAL SERVICES

    Mr. McClure. Thank you. Good morning, Chairman Rockefeller, 
Ranking Member Hutchison, and distinguished members of this 
committee. I thank you for the opportunity to speak on the 
extremely important subject of public safety communications, 
especially in the rural areas.
    As the Senator said, my name is Steve McClure, and I'm the 
Director of Jackson County EMS. We are a small county. I've got 
over 35 years of experience in fire and EMS, with dual-service 
providers in the large cities, and single-service providers in 
smaller cities.
    I've submitted my written testimony and request that it be 
entered into the record. I also have a letter of support.
    The Chairman. All testimonies are part of the record.
    Mr. McClure. I also have a letter of support from various 
members of the EMS community. And, with the Chairman and 
Committee's approval, I'd like to request that it be added 
also.
    The Chairman. So ordered.
    Mr. McClure. Thank you.
    I'd like to touch on and reiterate a couple of main points 
in my testimony and provide some real-life scenarios that 
emphasize the day-to-day need for public safety broadband in 
rural America, including Jackson County.
    As you know, Jackson County is in the mid-Ohio Valley. It 
has a very diverse topography, covers about 472 square miles. 
Employment in our area ranges from manufacturing to farming. 
And with a major river on our western border and a major 
highway, Interstate 77, that transects our county from north to 
south, our public safety responders have a lot of unique 
situations that we have to deal with every day.
    I'm here to specifically address effective communications. 
This is paramount in the delivery of quality services. Inherent 
problems in the way that we deal with our communications today 
have to be addressed so that we can take care of future issues 
in communication.
    Jackson County lies just north of Kanawha County. That 
houses our capital city, Charleston; Charleston also has a 
level-1 trauma center located within its city boundaries. My 
paramedics can be within twenty miles of that trauma center and 
cannot communicate with anyone. Our land mobile radios can't 
communicate because of the topography, our cell phones have no 
service, and there are very few landlines in the area. So we 
can't even communicate. As I mentioned to the Senator when we 
talked, I have to carry two cell phones, with two different 
providers, to be able to communicate with my dispatch center 
and my crews. And this isn't even possible in all areas of my 
county. Lack of infrastructure with cell towers is the problem 
there.
    These problems aren't unique to Jackson County, or to West 
Virginia, for that matter. From Hawaii to Florida, from Texas 
to Maine, every remote and rural area has these same problems. 
So, they're not unique to just us. The problem is, a broken 
bone or a heart attack doesn't differentiate between an urban 
area, a rural area, or a suburban area. It's still a problem, 
and we have to deal with it.
    How are we going to solve these problems? It's important to 
understand that you have the ability to give rural and urban 
America a solution that will help public safety do a more 
efficient job. Funding to build the needed infrastructure and 
securing enough spectrum are two major steps that will provide 
all Americans with the services they expect and deserve.
    All facets of public safety have joined together and issued 
a call for action to take care of this. And I'm proud to say 
that my Senator, and your Chairman, has stepped forward and 
answered this call with S. 3756, the Public Safety Spectrum and 
Wireless Innovation Act of 2010. Not only will S. 3756 provide 
for the major first steps, building the infrastructure and 
securing the spectrum, it will allow an unprecedented move to 
develop a real nationwide public safety communication network. 
It will allow greater technological advances in patient care. 
We will be able to do things that we aren't able to do in 
today's system. There's technology out there, right now, that 
we can use to triage patients, determine whether or not they 
need aeromedical evacuation or if they can go to a lesser level 
of care. This helps speed our treatment of our patients, this 
helps keep us within what we call our ``golden hour of 
trauma,'' and it helps increase the survival rate of all of our 
patients. Not only will EMS benefit from this, but fire, 
police, and all public safety will benefit from this. It will 
start to bring us back together.
    In conclusion, I'd like to ask you to recall a day, in July 
1969. I vividly recall watching Neil Armstrong step from the 
lunar module and step on the Moon. And he issued those famous 
words, ``That's one small step for man, one giant leap for 
mankind.'' And my point is, why, in 1969, could someone 
communicate with us from 290,000 miles away, and today, in 
2010, we can't communicate twenty miles away? I'd like to ask 
you to take that small step so that public safety can take a 
giant leap forward.
    I want to thank you, Chairman Rockefeller, Senator 
Hutchison, and all of the members of this committee. I 
appreciate the work you do. And I'd be happy to answer any 
questions you might have.
    [The prepared statement of Mr. McClure follows:]

    Prepared Statement of Steve McClure, Director, Jackson County, 
                West Virginia Emergency Medical Services
    Good morning Chairman Rockefeller, Ranking Member Hutchison and 
distinguished members of this Committee. I thank you for the 
opportunity to speak about an extremely important subject: 
communications for public safety.
    My name is Steve McClure. I am the Director of Emergency Medical 
Services for Jackson County, West Virginia and I have over 40 years of 
experience in the public safety sector. Jackson County Emergency 
Service (JCEMS) provides emergency ambulance service for the county, 
and also provides non-emergency transports.
    As you may know, Jackson County is located in the Mid-Ohio Valley 
and has a very diverse topography, with an area of approximately 472 
square miles and a population of nearly 30,000. Jackson County lies 
just north of Kanawha County and the capitol city, Charleston, and 
includes a Level I Trauma Center. Employment in the area ranges from 
manufacturing to farming, and a major river borders the western part of 
the county. A major highway transects the Jackson County from north to 
south. All of these factors present a wide range of difficulties for 
public safety providers.
    I am here today to specifically address an item that is at the very 
core of public safety communications in rural America. Effective 
communication between the requester of service and the dispatch center, 
between the dispatch center and public safety response agencies, and 
among the responders themselves is paramount to delivery of services. 
However, inherent problems in the way we communicate today must be 
addressed for the future of public safety communications over the next 
several decades.
    My paramedics can be within twenty minutes of the trauma center and 
unable to communicate with anyone; radios won't work, cell phones have 
no signal and land lines in the area can be scarce.
    Communications problems are not unique to my county or to West 
Virginia. From Hawaii to Florida, from Texas to Maine and all parts in 
between, we have the same problems. While many of these problems occur 
in rural and remote areas, a broken bone still hurts the same and a 
heart attack can still do the same damage in rural America as well as 
any urban or suburban setting.
    How do we solve these problems and permit public safety officials 
to do a more effective job? Funding to build infrastructure and 
sufficient spectrum to communicate are two major steps forward that 
will provide all Americans with the quality of emergency services they 
expect.
    The long-term vision for public safety should be to migrate land 
mobile radio (LMR) systems to a robust nationwide interoperable 
broadband network that can meet the mission critical and day-to-day 
operational needs of our nation's first responders. This will not 
happen overnight, and indeed, may be measured by decades. But the 
sooner we start building and testing, the faster we will realize our 
goals. A converged data and voice network must be at least as reliable 
as existing land mobile mission critical voice networks before public 
safety agencies would even consider migrating their voice 
communications to a broadband network. The broadband network must be 
hardened to survive most natural and manmade disasters, and flexible 
enough to support a variety of government and commercial applications 
that will enhance broadband services to all parts of this great nation, 
as well as America's position as a leader in broadband deployment.
    With advances in technology, public safety practitioners have an 
increasing need to access data and video networks during all emergency 
incidents. These needs include:

  <bullet> Law enforcement access to streaming video, surveillance 
        networks, criminal records, automated license plate 
        recognition, and biometric technologies including mobile 
        fingerprint and iris identification to prevent and respond to 
        criminal activities.

  <bullet> Fire service access to building blueprints, health-
        monitoring sensors for fire & rescue personnel, and GPS 
        tracking systems to enable more efficient response to fires in 
        order to save lives.

  <bullet> Emergency medical service access to telemedicine, high 
        resolution video, and patient records to reduce the time it 
        takes to deliver medical services at the scene of a incident 
        such as a car crash on a highway.

  <bullet> Critical infrastructure service provider access to 
        information to coordinate responses and to restore power and 
        telecommunications services during large-scale incidents.

  <bullet> Federal Government patrol, investigative and other public 
        safety operations, including the U.S. Marshal Service, Federal 
        Bureau of Investigations, U.S. Customs Service, Federal 
        Emergency Management Agency, Department of Homeland Security 
        and U.S. Secret Service Uniformed Division, Department of 
        Interior and U.S. Park Police, and various other federal 
        agencies access to data networks during everyday and large-
        scale incidents to coordinate federal assistance with State and 
        local response and recovery operations.\1\
---------------------------------------------------------------------------
    \1\ Department of Commerce, Federal Strategic Spectrum Plan (Mar. 
2008), at 4, B137-139, B-143, available at http://www.ntia.doc.gov/
reports/2008/FederalStrategicSpectrumPlan2008.pdf (increasing federal 
broadband requirements) and Department of Commerce, A Public Safety 
Sharing Demonstration, (June 2007), at xiv, available at http://
www.ntia.doc.gov/reports/2007/NTIAWARNReport.htm.

    The list above represents just a few of the applications and 
services that need to ride on a public safety broadband network. 
Unfortunately, the hard reality is that the types of applications and 
services that will ride on the network depends greatly on the amount of 
spectrum that is available for public safety broadband services. Many 
of the applications listed above require considerable bandwidth and 
speed, and the 10 megahertz (MHz) of spectrum that is already allocated 
to public safety will not be enough.
    In 2007, the Federal Communications Commission adopted a Report & 
Order \2\ approving the issuance of a single nationwide license for 10 
MHz of 700 MHz public safety spectrum re-designated for broadband use 
to deploy a nationwide public 
safety-grade broadband network. This allocation only meets the basic 
data needs for public safety. Most, if not all, of this spectrum will 
be consumed by local law enforcement and fire services. The 10 MHz of 
spectrum is insufficient to allow for high quality voice and video 
applications or the ability to provide access to other government and 
critical infrastructure services.\3\
---------------------------------------------------------------------------
    \2\ See Service Rules for the 698-746, 747-762 and 777-792 Bands; 
Implementing a Nationwide, Broadband, Interoperable Public Safety 
Network in the 700 MHz Band, WT Docket No. 06-150, PS Docket No. 06-
229, 23 FCC Rcd 8047 (2008) (700 MHz Second Further Notice); see also, 
generally, Service Rules for the 698-746, 747-762 and 777-792 Bands; 
Implementing a Nationwide, Broadband, Interoperable Public Safety 
Network in the 700 MHz Band, WT Docket No. 06-150, PS Docket No. 06-
229, 23 FCC Rcd 14301 (2008) (700 MHz Third Further Notice).
    \3\ New York City 700 MHz Broadband Public Safety Applications And 
Spectrum Requirements (http://d-block.net/assets/pdf/
NYC_Spectrum_Requirements.pdf) and Spectrum Coalition, How Much Do We 
Need For Data (http://d-block.net/assets/pdf/How_Much_Do_We
_Need_For_Data.pdf).
---------------------------------------------------------------------------
    One of the most important goals for public safety is to begin using 
voice applications on the broadband network, but this requires a firm 
commitment from the commercial wireless industry to research, develop, 
and establish standards for the next generation of public safety 
communications equipment. Indeed, as Congresswoman Harman and others 
suggest in support of public safety, we need the Federal Government to 
help create incentives and support for device R&D as a next priority 
once the D Block is secured for public safety and adequate funding is 
established for buildout and sustainment of the nationwide public 
safety broadband network.
    I am proud to say that my Senator and your Chairman has answered 
public safety's call, and the public's expectation, to provide the 
funding and spectrum necessary with S. 3756: The Public Safety Spectrum 
and Wireless Innovation Act of 2010.
    The Obama Administration, Congress, the Federal Communications 
Commission, the Department of Homeland Security, the Department of 
Commerce, the Department of Justice, Department of Defense, and others 
should work with public safety to develop the appropriate spectrum and 
funding policy that will enable local, state, and tribal governments to 
build their next generation of interoperable public safety wireless 
broadband networks. I understand that a series of meetings have taken 
place over the past month, culminating with a two-day session in 
Northern Virginia earlier this week. I am glad to know that the 
conversation includes an equal focus on rural America, and again to 
know that Senator Rockefeller and others will continue to emphasize 
that public safety networks are built based on geography, as well as 
population--to cover the entire jurisdiction--and so must the 
nationwide public safety network. Indeed, federal users will rely on 
those networks whether at a plane crash site, fighting a wildfire or 
dealing with myriad other everyday to large-scale incidents in remote 
areas.
    The Congress should consider the following six principles in 
developing national policy for improving our nation's public safety 
communications systems:

        1. Adequate spectrum must be allocated to public safety to 
        provide the highest speed and quality for transmitting mission 
        critical voice, video and data services throughout their 
        jurisdiction. The propagation characteristics of the spectrum 
        that is allocated should allow for in-building coverage and be 
        able to transmit a signal over large geographic areas.\4\
---------------------------------------------------------------------------
    \4\ 700 MHz Band Channel Propagation Model by the National 
Institute of Standards and Technology (NIST) http://www.nist.gov/itl/
antd/emntg/700mhz.cfm.

        2. Local public safety agencies must be able to control the 
        amount of spectrum resources they need to ensure broadband 
        networks are able to provide voice, video, and data services to 
        law enforcement, fire and emergency services.\5\
---------------------------------------------------------------------------
    \5\ If public safety owns and operates its own network, or at a 
minimum holds the spectrum license in a public private joint venture 
network, they can exert greater control over future technical decisions 
that effect network performance. Additionally, ownership of the network 
allows public safety to exert influence over the network design and 
deployment to satisfy the immediate and future needs of public safety 
users. (New York City's 700 MHz Broadband Public Safety Applications 
And Spectrum Requirements White Paper)

        3. State and local public safety agencies must have full 
        control over who can access the network and what applications 
---------------------------------------------------------------------------
        are authorized to operate on it.

        4. Auction proceeds from the sale of reclaimed radio spectrum 
        for commercial wireless services should be allocated to help 
        expedite the build out and continued maintenance and operation 
        of a nationwide wireless broadband network.\6\
---------------------------------------------------------------------------
    \6\ At least 25 megahertz of contiguous spectrum at frequencies 
located between 1675 megahertz and 1710 megahertz, inclusive, can be 
made available for immediate reallocation and auction.

        5. State and local government should be able to use current 
        federal grant programs such as the State Homeland Security 
        Program (SHSP), the Urban Area Security Initiative Grant 
        Program (UASI), the Metropolitan Medical Response System 
        (MMRS), Emergency Management Performance Grants (EMPG), 
        Interoperable Emergency Communications Grant Program (IECGP), 
        Regional Catastrophic Preparedness Grant Program (RCPGP), and 
        Preparedness Grants, the Community Oriented Policing Services 
        (COPS) Technology, Department of Justice's State, Local, and 
        Tribal Terrorism Prevention Training and Technical Assistance 
        National Initiative Program, and the Justice Assistance Grant 
        (JAG) Program to assist them in building their public safety 
---------------------------------------------------------------------------
        broadband networks.

        6. Public-private partnership should be encouraged when 
        possible. However, public safety agencies must have the ability 
        to deploy dedicated wireless broadband networks in their 
        jurisdiction if commercial providers are unable to, or 
        unwilling to, support their mission critical needs.

    In order for public safety to be successful in deploying the next 
generation of broadband networks, Congress must act quickly to pass S. 
3756: the Public Safety Spectrum and Wireless Innovations Act of 2010. 
This legislation will allocate sufficient dedicated spectrum and 
funding resources to public safety to build out the network. Without 
sufficient spectrum and funding, public safety will be relegated to 
using commercial networks that do not meet the mission critical needs 
of our nation's first responders. Should Congress not enact legislation 
to allocate additional spectrum to public safety, the public's safety 
and the safety our first responders are at risk.
    The goal for improving our nation's public safety communications 
systems should be to create a ubiquitous public safety broadband 
network in the 700 MHz band that meets all of public safety's needs in 
all geographic locations and across all jurisdictions and services.
    A unique opportunity exists to change the paradigm of public safety 
communications where multiple frequency bands and incompatible 
technologies create obstacles to interoperability and perpetuate 
inefficiency. The ultimate goal and vision of the public safety 
broadband network is to learn from the mistakes of the past and plan 
for a future in which wireless broadband networks deployed on a common 
frequency band--using a common technology platform--provide public 
safety with the tools they need for the twenty-first century.
    I can vividly recall that day in July 1969, when as a young child I 
watched the first moon landing and heard Neil Armstrong issue those 
famous words, ``that's one small step for man, one giant leap for 
mankind.'' If someone could communicate those words from almost 290,000 
miles away, why can't we communicate with services that are 20 miles 
way? Radio towers and cell towers (infrastructure) in the southern part 
of my county are nearly non-existent. This same problem manifests all 
across the country and we need to fix it. Quickly passing S. 3756 is 
the key to fixing this problem.
    Thank you again Chairman Rockefeller, Senator Hutchison and members 
of this committee and I look forward to any questions you might have. I 
leave you with some basic questions and answers to re-emphasize the 
main points from perspective.
Why Does Public Safety Need 20 Megahertz of Spectrum?
    The allocation of 20 megahertz of spectrum will double the 
transmission speed and reduce the degradation of data especially in 
voice and video applications. The additional spectrum will also reduce 
the cost of build out of the network because less base stations will be 
needed to accommodate all the users and applications on the network.
    The 20 MHz of spectrum will be sufficient to build equipment that 
will provide voice, video and data applications to first responders. 
Without sufficient spectrum, equipment manufacturers may not invest the 
money that is needed to develop new mission critical broadband 
communications equipment and applications. The amount of spectrum 
public safety can use will determine what equipment and applications 
will be available.
    The 20 MHz of spectrum will also provide enough excess capacity on 
the network to allow for government and critical infrastructure \7\ 
applications and also allow for commercial services to consumers, 
businesses, and schools and other key institutions in the most rural 
and underserved areas of the country.
---------------------------------------------------------------------------
    \7\ Example of government operations include water, electric and 
gas meters read remotely taking advantage of the broadband wireless 
network and/or its backhaul infrastructure to improve accuracy and 
reduce labor costs. (New York City's 700 MHz Broadband Public Safety 
Applications And Spectrum Requirements White Paper)
---------------------------------------------------------------------------
    To truly understand the broadband need of public safety we need to 
emphasize the key word mobile. So, what do we mean by mobile?
    Mobile means that while traveling at 55 mph on the highway you are 
able to continuously access a broadband network to upload and download 
data. It means that if you are pursuing a suspect at 80 mph and have an 
in-car video camera you can upload the live video to the emergency 
communications center. It means that while you are responding to a fire 
you can download the blueprints to the burning building before you get 
to the scene. It means transmitting medical data to emergency medical 
personnel that are transporting a trauma patient and receiving a 
patient's vital statistics at the hospital before the ambulance ever 
arrives.
How Do You Solve the Technological Divide Between Public Safety and 
        Commercial Systems?
    Public safety has endorsed Long Term Evolution (LTE) as the 
standard technology for the 700 MHz broadband networks. By adopting the 
LTE standard prior to any deployments, public safety is working to 
ensure systems are interoperable. Also by adopting the LTE standard, 
which has been adopted by the largest commercial carriers, public 
safety believes that there will be considerable cost savings in 
purchasing equipment that will operate on the network.
    The LTE technology will also allow public safety agencies to 
partner with commercial carriers in their regions to build out their 
networks. This is critical for geographic areas of the country that are 
serviced by the rural cellular carriers. By partnering with public 
safety, the rural carriers will be able to extend their coverage area 
and provide greater services to the customers.
    It is important that one of the goals for improving our nation's 
public safety communications systems is to provide funding to encourage 
investment in research and development (R&D) of new communications 
equipment and applications that can be integrated into the public 
safety broadband network.
    One of the most immediate R&D efforts should be to develop LTE 
equipment and applications that can meet the mission critical voice 
communications needs of public safety. To ensure competition and reduce 
the cost of the equipment, the Federal Government should provide 
funding for the R&D program.
    LTE technologies must be capable of providing two-way, peer-to-
peer, and one-to-many transmission of mission critical voice 
communications services for first responders. Delay in developing the 
standards for these types of applications will prolong the migration of 
LMR systems to next generation of public safety communications 
technologies.
    Commercial carriers are moving rapidly to develop a single standard 
for voice over LTE technology (VoLTE).\8\ This standard however is 
being primarily developed for voice communications that are similar to 
existing cellular services. As these standards are developed, public 
safety needs to work closely with commercial partners to ensure VoLTE 
is going to be compatible with the voice communications applications 
that will be used by public safety. By building commercial equipment 
that can support public safety's voice communications needs the cost of 
purchasing equipment could be greatly reduced.
---------------------------------------------------------------------------
    \8\ GSM Association adopts carriers' framework for LTE voice: VoLTE 
made its debut late last year, when AT&T, Verizon and several other 
telecom companies and device manufacturers joined forces to help 
develop voice and SMS standards for LTE. The coalition of telecom and 
tech companies originally banded together to create joint voice and SMS 
standards that would avoid potential fragmentation of LTE services and 
thus ensure that voice-capable LTE devices could operate on different 
networks. (http://www.networkworld.com/news/2010/021510-gsma-one-
voice.html)
---------------------------------------------------------------------------
    Before public safety agencies are able to migrate their LMR systems 
to broadband networks, they must be assured the network will be capable 
of providing the same level of services as their existing LMR networks. 
A key component of this is the availability of sufficient spectrum to 
provide the highest quality of voice communications to first 
responders.

    The Chairman. Thank you very much, Director McClure, and we 
will have questions.
    Our next witness is The Honorable Annise Parker, who is the 
Mayor of the largest city in--did you say in Texas or in 
America?
    [Laughter.]
    Senator Hutchison. The fourth largest in America, and the 
largest----
    The Chairman. The fourth largest in America.
    Senator Hutchison.--in Texas.
    The Chairman. Welcome.

           STATEMENT OF HON. ANNISE D. PARKER, MAYOR,

       CITY OF HOUSTON; AND CHAIR, COMMITTEE ON CRIMINAL

         AND SOCIAL JUSTICE, U.S. CONFERENCE OF MAYORS

    Ms. Parker. Thank you. It's my honor to be here. I--while I 
am representing the City of Houston and my 2.2 million 
constituents, I'm actually here on behalf of the U.S. 
Conference of Mayors. I'm the chair of the Criminal and Social 
Justice Committee. And the mayors involved in that association 
have a strong interest in this legislation and strongly support 
this legislation.
    To my Senator, Senator Hutchison, thank you for briefly 
meeting with me this morning and, as always, for your great 
advocacy on behalf of the State of Texas.
    Senator, we do thank you for your leadership on this. We do 
officially support Senate Bill 3756. And I'm not going to go 
into the weeds on the technical side. Let me talk to you a 
little bit about what happens in a big city, as opposed to the 
rural areas.
    Our city has eighteen different large wireless projects in 
progress. And a multitude of smaller cities, interspersed with 
rural areas, in a metropolitan area of, oh, five and a half 
million people, we are unable, currently, in the city of 
Houston, to communicate with the larger area represented by 
three counties, in which we lop over, because we do not have an 
interoperable radio system. We, years ago, went in two 
different directions, and the smaller communities in this--in 
our area are forced to choose between, ``Do we get on the city 
of Houston's radio system, or do we get on the largest county--
Harris County's radio system?''
    We are now spending approximately $125 million to move 
toward a singular system, where we can communicate with each 
other, most of that being spent by the citizens of Houston, 
because we have realized that, rather than trying to force the 
larger area to come with us, we're going to have to go and link 
with the larger area. We are utilizing all of the remaining 700 
megahertz narrowband channels in the Houston area, and that 
will have a useful life of perhaps 15 to 20 years. We 
absolutely need to secure our future and our ability to 
communicate with each other in this huge metropolitan area, 
with millions of people, in the event of an emergency. We 
cannot do that today without patching our systems together.
    We do support your legislation. There is one area in which 
the U.S. Conference of Mayors would support some changes. And 
we believe that it's important for the Federal Government to 
deal with 50 states, rather than the thousands of local 
governments. And so, if we can make it possible to put some 
language in for funding to go to those local agencies that 
cover the broadest areas--sometimes that's at the state level 
and, as I indicated, sometimes it is at a regional level, where 
we're already grappling with this issue on a daily basis.
    It is unconscionable that, nine years after September 11, 
and five years after Hurricane Katrina, and representing a city 
that is in the hurricane belt, that we cannot communicate with 
each other on a nationwide level, that I can't communicate 
first-responder-to-first-responder to my local partners in 
county government. And we ask you to move this legislation and 
support all of us.
    Again, thank you for the time to be here.
    [The prepared statement of Ms. Parker follows:]

Prepared Statement of Hon. Annise D. Parker, Mayor, City of Houston and 
  Chair, Committee on Criminal and Social Justice, U.S. Conference of 
                                 Mayors
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, I am Annise D. Parker, Mayor of Houston and Chair of the 
United States Conference of Mayors Committee on Criminal and Social 
Justice. I appreciate having the opportunity to discuss why it is 
important to reallocate the D Block to public safety and also provide 
assistance to states and localities in the build-out, maintenance, and 
operation of a nationwide public safety communications system.
    Senator Rockefeller, I want to thank you for your leadership on 
this issue. You listened to the strong concerns which public safety and 
local and state government officials had with the plan to auction off 
the D Block to the highest bidder for commercial applications. Your 
legislation, the Public Safety Spectrum and Wireless Innovations Act of 
2010 (S. 3756), would ensure that our nation's first responders are 
able to access a broadband network capable of providing reliable high 
speed data and voice applications so that they can meet current and 
future public safety needs. Be assured that the Conference of Mayors 
enthusiastically supports S. 3756 and looks forward to working with you 
to see it enacted into law.
    Senator Hutchison, I greatly appreciate your strong support for the 
City of Houston in Washington and for public safety agencies around the 
state and I look forward to working with you in support of this 
legislation.
    The Conference strongly supports reallocating the D Block of the 
700 megahertz spectrum to public safety. While we have had policy to 
that effect for several years, last June we expanded that policy by 
adopting a resolution which:

  <bullet> opposes the FCC proposal in the National Broadband Plan to 
        auction the D Block spectrum to a commercial provider;

  <bullet> calls upon Congress to immediately pass legislation that 
        prevents the FCC from undertaking an auction in 2011, and 
        conditions further FCC action on formal Congressional approval 
        of plans for the D Block and meeting public safety spectrum 
        needs;

  <bullet> calls upon Congress to reallocate the D Block to public 
        safety; and

  <bullet> endorses identification of alternative federal funding 
        sources to ensure that all states and localities can afford the 
        costs associated with transition to a nationwide network.
The D Block's Importance to Public Safety
    Mayors and city council members know that the location of the D 
Block offers a one-time opportunity to improve first responder 
communications and emergency response capabilities. We also know that 
allocating the D Block to public safety would double the amount of 
spectrum available for first responder communications, yet remove less 
than 2 percent of the spectrum that the FCC and the Administration 
propose to make available for commercial use. And we know that without 
the D Block, first responder communications will continue to lack 
access to the technologies commercial customers take for granted.
    Commercial networks cannot guarantee first responders have priority 
access over other users. When lives are at stake, firefighters and 
police officers cannot have their calls dropped or wait to get a 
signal.
    Most of us take for granted text messaging, sharing pictures and 
distributing videos via commercial wireless devices. First responders 
can only do this through commercial networks, which do not meet mission 
critical needs. First responders should be able to distribute and 
receive pictures, video and data in real-time from other officers, 
citizens and emergency dispatch systems.
    Existing research and the variety of broadband applications for 
public safety use indicate that public safety needs at least 20 MHz of 
contiguous spectrum. This can only be achieved by combining the D Block 
with the 10 MHz already allocated to public safety. Failure to 
reallocate the D Block will force public safety to continue to rely on 
separate data and voice networks, limiting the kinds of applications 
first responders can utilize.
    In disaster situations, customers clog commercial systems as they 
attempt to communicate with friends and loved ones, access information, 
and try to document the event online. This usage blocks first 
responders from accessing the network. To protect life and property, 
first responders require what is referred to as ruthless preemption, or 
the ability to kick commercial customers off the network. From a 
commercial provider standpoint, this is not an acceptable business 
practice. Therefore, efforts to provide priority to public safety on 
commercial networks will not meet public safety needs for assured 
access.
    Reallocating the D Block would give public safety officials 
sufficient spectrum to utilize a variety of applications while also 
controlling access to the network during times of emergency. Providing 
public safety officials with priority access to commercial networks is 
insufficient and jeopardizes the public's safety.
    To date, public safety has been granted only small sections of 
spectrum over time, but never enough to consolidate communications into 
a single frequency band. This means that when multiple agencies respond 
to an event, they cannot communicate with each other because they each 
use radios that operate on different portions of the spectrum. Many 
police carry multiple radios just to ensure they can communicate with 
other responding agencies during emergencies. Giving public safety the 
D Block would help end the need to utilize multiple communications 
systems which adds significantly to the cost and complexity of 
emergency communications.
The Situation in Houston
    The city of Houston is the fourth largest city in the country. We 
have the two largest public safety agencies in the state of Texas. The 
Houston Police Department has over 5,300 sworn officers and the Houston 
Fire Department has over 4,000 sworn firefighters. There are a similar 
number of police, fire and EMS first responders in the other cities and 
counties that make up our region.
    The city of Houston has 18 different large wireless projects in 
progress at this time. Many of these projects are hampered by a lack of 
available, licensed spectrum. This lack of available spectrum to 
license leaves the city in a position to be forced to use unlicensed 
and/or shared spectrum. Unlicensed spectrum leaves the city vulnerable 
to security issues that would be greatly minimized if a broadband 
public safety grade network were available. Some examples of these 
projects are:

  <bullet> Office in the patrol car, which is intended to allow police 
        officers to conduct all aspects of their business from the 
        patrol car. This will require access to large reports, images, 
        and files making broadband a critical element for successful 
        deployment.

  <bullet> Public safety video, which provides video for many locations 
        deemed critical infrastructure or high crime hot spots.

  <bullet> New records management system, which will replace a 20+ 
        year-old system and provide wireless access to most police 
        records and crime data bases.

    Further, the city is in the process of building a $125+ million 
land mobile radio system on 700 MHz narrowband channels. This system 
utilizes all remaining 700 MHz narrowband channels in the Houston area. 
The useful life of this new system will be at least 15-20 years. 
Therefore, the city is absolutely committed to preserving the 700 MHz 
narrowband spectrum for land mobile radio voice systems.
    Any use of these channels for dissimilar technology would put the 
integrity of our system in jeopardy. We believe that opening up this 
spectrum for broadband, even on a secondary basis, could result in 
devastating interference to our voice radio systems. It is critical 
that these systems be available for our first responders to use at all 
times. We have a motto for our system, ``first time-every time.'' This 
means that our first responders must be able to push their transmit 
button and get through the first time and every time ALWAYS. Anything 
less is a safety hazard and is not acceptable.
    All major metropolitan areas will need at least 10 x 10 MHz of 
broadband. Our needs are just beginning to come to light. We already 
have unmet needs for broadband, and the technology is still very new. I 
believe that the demand for these services is just beginning to be 
identified. Shouldn't our first responders have access to technology at 
least as good as that available to our teenagers? It is imperative that 
we ensure our major investment into broadband technology will meet our 
everyday needs and our large-scale emergency needs. This can only be 
accomplished by pairing the D Block with the adjacent broadband 
spectrum already licensed to public safety.
The Public Safety Spectrum and Wireless Innovations Act of 2010
    Senator Rockefeller, I have already mentioned our strong support 
for the Public Safety Spectrum and Wireless Innovations Act of 2010. 
Your bill would ensure the deployment of a nationwide public safety 
interoperable broadband network in the 700 MHz band in both rural and 
urban areas, and it would ensure that the nationwide public safety 
broadband network is fully interoperable on a nationwide basis.
    It would reallocate and integrate the 700 MHz D Block spectrum for 
use by public safety entities. It would authorize the FCC to auction at 
least 25 MHz of other portions of the spectrum and deposit the proceeds 
into a Public Safety Interoperable Broadband Network Construction Fund 
and a Public Safety Interoperable Broadband Maintenance and Operation 
Fund, with the first $5.5 billion to go to the construction fund and 
any additional proceeds up to $5.5 billion to go to the maintenance and 
operation fund.
    It would also direct the FCC to establish standards for secondary 
use of the public safety network, allowing licensees to lease capacity 
on a secondary, but preemptible basis to non-public safety governmental 
users, commercial users, utilities, and federal agencies. And it would 
require that any proceeds from those leases be deposited in the 
maintenance and operation fund and be used for ``constructing, 
maintaining, improving, or purchasing equipment to be used in 
conjunction with the network.''
    There is one area in which we would suggest some changes. While we 
understand the important role that states must play in the development 
of a nationwide interoperable broadband network, and that it's easier 
for the Federal Government to deal with 50 states than thousands of 
local governments, we do hope that you will include some language that 
will make it possible for funding to also go directly to local agencies 
which are responsible for the build out, operation, and maintenance of 
broadband networks. You will note that seated with me at this table are 
local public safety officials, and that they are the ones charged with 
protecting our people, and who every day put their lives on the line.
    Specifically, we ask that you include in the bill a provision which 
allows grant funds to go directly to local governments or local public 
agencies, such as regional entities. Allowing localities to apply for 
grants directly will ultimately benefit the entire state and region. 
While it is vital that these local governments work collaboratively 
with their state and federal partners, allowing municipalities to 
become early adopters has already proven to accelerate the roll out of 
the nationwide interoperable public safety broadband network.
    For instance, both Seattle and New York City were granted waivers 
allowing their public safety agencies to build interoperable broadband 
networks in the 700 MHz spectrum. Based on New York City's success, New 
York State has applied for and received conditional approval to move 
forward with the construction of statewide interoperable wireless 
broadband networks in the public safety broadband spectrum. Washington 
State similarly hopes to use grants from your bill to rapidly expand 
the Seattle network throughout the Puget Sound region and across the 
state of Washington. Since the state of Oregon also applied for and 
received a grant request to build a 700 MHz broadband network, those in 
Seattle are already working with their partners in Oregon to make sure 
the networks work with each other seamlessly. By starting in these city 
centers, large rural areas of the Pacific Northwest and Mid-Atlantic 
may soon have access to a nationwide interoperable public safety 
broadband network much sooner than otherwise imaginable.
    These waiver projects provide a ray of hope. It is unconscionable 
that nine years after September 11 and five years after Hurricane 
Katrina, we still do not have a nationwide interoperable public safety 
broadband network. Your bill would move us significantly closer to the 
nationwide network that our first responders need to meet the 
challenges of the next decade. All Americans deserve to be able to live 
in communities that are safe and secure, and effective communications 
among police, fire, and other first responders are essential to this. 
We look forward to working with you to see the Public Safety Spectrum 
and Wireless Innovations Act of 2010 enacted into law this year.

    The Chairman. Thank you, Mayor Parker.
    Ms. Parker. I--sir, I do ask that--as you said, I would ask 
that my testimony to be entered into the record.
    The Chairman. They're all in the record.
    Ms. Parker. Thank you, sir.
    The Chairman. Believe me.
    [Laughter.]
    The Chairman. Mr. Robert Davis, who is the Chief of Police 
of the San Jose's Police Department and President of the Major 
Cities Chiefs' Association.
    Welcome, sir.

              STATEMENT OF CHIEF ROBERT L. DAVIS,

           SAN JOSE POLICE DEPARTMENT AND PRESIDENT,

                MAJOR CITIES CHIEFS ASSOCIATION

    Mr. Davis. Thank you. Good morning, Chairman Rockefeller 
and Senator Hutchison, as well as the other members of the 
Committee.
    My name is Rob Davis, and I currently serve as the Chief of 
the Police Department in America's 10th largest city, San Jose. 
I would like to thank you for this opportunity to appear before 
you today to discuss one of the most critical issues facing 
public safety that I have witnessed in my thirty-years' career, 
the creation of a nationwide interoperable wireless broadband 
communications network for public safety.
    I'm here today, speaking as President of the Major Cities 
Chiefs' Association, MCC. The 56 U.S. cities represented at MCC 
are America's centers of industry, transportation, education, 
and commerce. Our police departments provide public safety 
services to roughly 40 percent of America's population. 
However, I speak today not only for the Major Cities Chiefs, 
but also on behalf of virtually all of my colleagues in public 
safety across America.
    For the first time in my memory, law enforcement, fire, 
EMS, and other emergency service organizations have come 
together to speak with one voice on an issue that profoundly 
affects the security of our homeland. The organizations leading 
this effort include the Major Cities Chiefs, the International 
Association of Chiefs of Police, the International Association 
of Fire Chiefs, represented by my colleague on this panel, 
Chief Jeff Johnson, the National Sheriffs Association, the 
Metropolitan Fire Chiefs, the Major County Sheriffs 
Association, the Association of Public Safety Communications 
Officials, and the National Emergency Management Association. 
We are also joined in this effort by the National Governors 
Association, the National Conference of State Legislatures, the 
Council of State Governments, the National Association of 
Counties, the National League of Cities, the U.S. Conference of 
Mayors, and the International City/County Management 
Association, and too many others to list here today.
    For those familiar with government, as I know you are, it 
is indeed a rare event that you will see all of these 
organizations come together and unite around a single issue. 
Indeed, we have come here with a straightforward, yet urgent, 
request. Almost a decade has been passed since the tragic 
events of 9/11, as has been mentioned. And our nation needs a 
mission-critical grade--I'd underscore, a ``mission-critical 
grade''--interoperable public safety wireless broadband network 
controlled by public safety--and I would underscore, 
``controlled by public safety.''
    After much discussion during this past two years, the 
leadership of public safety across this country has studied 
this issue thoroughly and concluded that the two most important 
things necessary to achieve this outcome are: one, the 
reallocation of the 700 megahertz D Block to public safety; 
and, two, adequate funding to build and maintain a national 
infrastructure.
    Mr. Chairman, your bill, S. 3756, provides us with exactly 
what we need to make this network a reality. We thank you for 
your leadership, and we urge all of your colleagues in Congress 
to support your bill.
    Why is the D Block so important? The answer is that this 
slice of spectrum is both uniquely suitable and desirable for 
public safety use. First, 700 megahertz is the ideal spectrum 
for nationwide emergency operations. Signals in this band can 
penetrate walls and windows much better than the higher band 
frequencies that some have suggested should be an alternative 
for public safety. Second, the D Block is immediately adjacent 
to the existing public safety broadband allocation, thus it can 
provide needed additional capacity, simply and elegantly, 
without complicating network or radio handset design. Any 
alternative spectrum would be less desirable, since additional 
components would be required, which would dramatically increase 
costs while reducing performance. Nonadjacent spectrum blocks 
will not provide as much throughput capacity as the D Block, 
since greater efficiency is achieved through spectrum 
aggregation; indeed, this is the essence of broadband.
    Moreover the D Block is critical for the accessibility of 
information by our nation's first responders. New technology, 
such as automated license-plate readers, infield biometrics, 
medical telemetry, automated vehicle location, and streaming 
video, only scratch the surface of the applications that will 
be carried by the National Public Safety Broadband Network.
    I would like to take a moment to address a notion that has 
been advanced by some wireless carriers, that they should 
control the networks and allow public safety to lease it. 
Indeed, this goes to one of your questions, Senator Hutchison. 
At a forum held just this week, some of our telecom industry 
partners acknowledged that their business models would not 
allow us access to those--to that network when we need it. It 
would not allow us the ability to get in there, because their 
business models simply wouldn't allow it. And they actually 
went on the record as saying that. This simply will not work 
for public safety. A dropped call on a cell phone is an 
annoyance. In an emergency it literally can mean the difference 
between life and death. Public safety personnel must have 
coverage whenever and wherever we respond in an emergency, and 
we must control that network.
    In closing, the public safety organizations mentioned at 
the beginning of my testimony are unified in the goal of 
establishing, for the first time, a nationwide public safety 
broadband network. We are not motivated by politics, nor 
profits. Our only motivation is the ability to serve the public 
we are sworn to protect. Indeed, I should mention that, as 
board member of the Silicon Valley Chamber of Commerce, which 
leads and supports our innovative technology community, I get 
the importance of industry to our communities. But, as the 
father of my 11-year-old daughter, Mackenzie, and the father of 
my 5-year-old son, Zachary, I also get the need for a long-term 
public safety system. Indeed, our motivation is simply to do 
the right thing for the right reasons.
    This is a historical moment for us. On behalf of my 
daughter, Mackenzie, and my son, Zachary, and the rest of 
America's children, I have to say, we can't afford to make 
mistakes. We have to get it right.
    And so, on behalf of these organizations, I thank you for 
your attention to this important issue. And I also will be 
pleased to answer any questions that you may have.
    [The prepared statement of Mr. Davis follows:]

Prepared Statement of Chief Robert L. Davis, San Jose Police Department 
             and President, Major Cities Chiefs Association
    Good morning, Chairman Rockefeller and members of the Committee.
    My name is Robert Davis and I currently serve as Chief of the San 
Jose Police Department. I would like to thank you for this opportunity 
to appear before you today to discuss one of the most critical issues 
facing public safety that I have witnessed in my 30-year career--the 
creation of a nationwide, interoperable, wireless broadband 
communications network for public safety.
    I am here today speaking as President of the Major Cities Chiefs 
Association (MCC). The fifty-six U.S. cities represented in MCC are 
America's centers of industry, transportation, education, and commerce. 
Our police departments provide public safety services to roughly forty 
percent of America's population.
    I speak today not only for the Major Cities Chiefs, but also on 
behalf of virtually all of my colleagues in public safety across 
America. For the first time in my memory, law enforcement, fire, EMS, 
and other emergency service organizations have come together to speak 
with one voice on an issue that profoundly affects the security of our 
homeland. The organizations leading this effort include the Major 
Cities Chiefs; the International Association of Chiefs of Police; the 
International Association of Fire Chiefs, represented by my colleague 
on this panel, Chief Jeff Johnson; the National Sheriffs Association; 
the Metropolitan Fire Chiefs; the Major County Sheriffs Association; 
the Association of Public Safety Communications Officials; and the 
National Emergency Management Association. We are also joined in this 
effort by the National Governors Association, the National Conference 
of State Legislatures, the Council of State Governments, the National 
Association of Counties, the National League of Cities, the U.S. 
Conference of Mayors, and the International City/County Management 
Association, and too many others to list here today. For those familiar 
with government, it is indeed a rare event that you will see all of 
these organizations come together and unite around a single issue.
    We have come here with a straight-forward, yet urgent request. 
Almost a decade has past since the tragic events of 9/11, and our 
nation needs a mission-critical grade, interoperable, public safety, 
wireless broadband network controlled by public safety. After much 
discussion during the past 2 years, the leadership of public safety in 
this country has studied this issue thoroughly and concluded that the 
two most important things necessary to achieve this outcome are: (1) 
reallocation of the 700 MHz D Block to public safety and (2) adequate 
funding to build and maintain a national infrastructure. Mr. Chairman, 
your bill, S. 3756 provides us exactly what we need to make this 
network a reality. We thank you for your leadership, and we urge all of 
your colleagues in Congress to support your bill.
    Why is the D Block so important? The answer is that this slice of 
spectrum is both uniquely suitable and desirable for public safety use. 
First, 700 MHz is the ideal spectrum for nationwide emergency 
operations. Signals in this band can penetrate walls and windows much 
better than the higher-band frequencies that some have suggested should 
be an alternative for public safety. Second, the D Block is immediately 
adjacent to the existing public safety broadband allocation, thus it 
can provide needed additional capacity simply and elegantly without 
complicating network or radio handset design. Any alternative spectrum 
would be less desirable, since additional components would be required 
which would dramatically increase costs while reducing performance. 
Non-adjacent spectrum blocks will not provide as much throughput 
capacity as the D Block, since greater efficiency is achieved through 
spectrum aggregation. Indeed, this is the essence of broadband.
    Moreover, the D Block is critical for the accessibility of 
information by our nation's first responders. New technologies such as 
automated license plate readers, in-field biometrics, medical 
telemetry, automated vehicle location, and streaming video only scratch 
the surface of the applications that will be carried by the national 
public safety broadband network.
    I would like to take a moment to address the notion that has been 
advanced by some wireless carriers that they should control the network 
and allow public safety to lease it. This simply will not work for 
public safety. A dropped call on a cell phone is an annoyance; in an 
emergency it literally can mean the difference between life and death. 
Public safety personnel must have coverage whenever and wherever we 
respond in an emergency.
    In closing, the public safety organizations mentioned at the 
beginning of my testimony are unified in the goal of establishing for 
the first time a nationwide, interoperable, mission-critical, public 
safety broadband network. We are not motivated by profit or politics. 
Our only motivation is the ability to serve the public we are sworn to 
protect. On behalf of these organizations, I thank you for your 
attention to this important issue, and I will be pleased to answer any 
questions from the Committee.

    The Chairman. Thank you very much, Chief Davis.
    And now, as you indicated, Mr. Jeffrey Johnson, who is 
Chief Executive of the Western Fire Chiefs Association and 
former President of the International Association of Fire 
Chiefs.

             STATEMENT OF CHIEF JEFFREY D. JOHNSON,

              EFO, CFO, MIFireE, FORMER PRESIDENT,

            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Johnson. Thank you, Chairman Rockefeller, Ranking 
Member Hutchison, and esteemed Senators of this committee.
    I am Jeff Johnson, and I am the past President of the 
International Association of Fire Chiefs, and I'm also 
currently the Chair of Oregon's Statewide Interoperability 
Executive Committee.
    A top priority for all of public safety--police, fire, and 
EMS--is to build nationwide public safety wireless broadband 
network.
    Mr. Chairman, S. 3756, the legislation that you introduced, 
will allow public safety to realize its nationwide 
communications goal by providing both the spectrum and the 
funding which is required.
    Over the past 50 years, the Federal Communications 
Commission has allotted thin slices of spectrum to public 
safety as the need for communications capability arose. 
Currently, 55,000 public safety agencies operate mission-
critical radio system, each with their own FCC license, over 
six or more different bands. Now, this is no criticism of the 
FCC, Senator. This is actually just the way business has been 
done for many years. And after numerous major events and other 
significant disasters, it is clear to us that a new model is 
necessary: a single national architecture for public safety 
wireless communications.
    To achieve a nationwide public safety wireless broadband 
network, key elements need to be in place:
    First, the network must have sufficient capacity. To 
achieve a nationwide public safety broadband network, 10 
megahertz of D-block spectrum, currently slated for FCC 
auction, must be added to the current 10 megahertz of spectrum 
licensed to the public safety broadband licensee. You can see, 
on the spectrum chart I've attached in my testimony, that this 
is the ideal spectrum. The public safety block abuts the D 
Block. Only with this particular spectrum configuration, and 
none other, can public safety be assured that we will have the 
ability to build the network we need, now and into the future. 
S. 3756 will accomplish this one-time opportunity to get this 
right.
    Second, public safety must control the network. A single 
public safety licensee, using a single technology, operating on 
a network with sufficient capacity, is required to handle the 
day-to-day operations, as well as the capability to manage 
major incidents. We cannot have commercial providers deciding 
what is and what is not an emergency.
    Third, the network must be mission-critical at the outset. 
In the beginning, this system will handle only data and video. 
At some future time, years away, we believe there will be a 
transition to mission-critical voice. This will happen when the 
technology is developed, public safety has confidence in that 
technology, and the cost is affordable.
    There are some key elements I think worthy of discussion, 
in terms of what is mission-critical:
    First, the network must be hardened to public safety 
requirements. This means that the towers must be able to 
withstand the elements that might disable them. It must have 
reliable backup power, 24 by 7. And redundancy in the system 
itself is necessary.
    Second, the public safety mission-critical voice network 
must have the ability to broadcast and receive what we call 
``one-to-one'' communications and ``one-to-many.'' And this 
system must operate in the event of a network failure, because 
if the network, for any reason, cannot provide connectivity, 
then we need the capability to communicate from device to 
device without the network.
    And, last, the network must have backup capabilities in the 
event of a complete network loss. We envision a satellite-
capable component for the network, to be available when the 
system is disabled or some other crippling malfunction. 
Further, in rural parts of America, it's often inefficient or 
ineffective to deploy radio communications via a tower-based 
network.
    Mr. Chairman, a federal investment is important for the 
buildout of a public safety broadband network. The broadband 
network needed by public safety cannot be built without federal 
support. 
S. 3756 recognizes this reality.
    While S. 3756 is very good, as written, there are two areas 
I'd like to see addressed as the bill moves forward:
    First, there is a reference, throughout the bill, for the 
FCC to issue state licenses. This, we believe, will hamper 
operability. Currently, seven states and the District of 
Columbia have been granted early deployment waivers. These 
states and D.C. have been granted FCC-approved leases by the 
Nationwide Public Safety Broadband Licensee. Only in this 
manner, a single licensee, can nationwide operability be 
assured.
    And, second, we have serious concerns about the flexible 
use of narrowband spectrum envisioned in section 103 of the 
bill. This could lead to interference problems, as well as 
reduce the needed narrowband capacity.
    Mr. Chairman, the International Association of Fire Chiefs 
and our public safety partners support S. 3756. This bill 
provides public safety with what it needs to begin the task of 
building out a nationwide broadband network. We thank you, sir, 
for your personal attention to this issue. And we'll work with 
you and the Committee the assure prompt passage. And I look 
forward to answering the questions of Ranking Member Hutchison 
and the other members of the Committee.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

  Prepared Statement of Chief Jeffrey D. Johnson, EFO, CFO, MIFireE, 
       Former President, International Association of Fire Chiefs
    I am Jeffrey Johnson, immediate past president of the International 
Association of Fire Chiefs (IAFC) and a chief fire officer of the 
Tualatin Valley Fire and Rescue Department in Beaverton, Oregon where I 
served as chief of the department for 15 years. I also am currently the 
Chairman of Oregon's Statewide Interoperability Executive Committee.
    A top priority for all public safety--police, fire and EMS--is to 
build a nationwide, public safety, wireless, interoperable, broadband 
network. This urgent need is recognized in many studies such as the 9-
11 Commission and Hurricane Katrina reports. Mr. Chairman, S. 3756, the 
legislation that you introduced, will allow public safety to realize 
its nationwide communications goal by providing both the spectrum and 
funding which is required. I am joined in my support for S. 3756 by 
members of the Public Safety Alliance (listed at end of testimony) 
which is committed to the build-out of this nationwide public safety 
broadband network. Our goal is supported by the seven national 
organizations representing state and local government as well as many 
of the leading telecommunications carriers and equipment manufacturers.
    Over the past fifty years, the Federal Communications Commission 
(FCC) has allocated thin slices of spectrum to public safety as the 
need for more communications capability arose. Currently, 55,000 public 
safety agencies operate mission critical radio systems--each with their 
own FCC license--over six or more different bands. Our goal of 
interoperability is difficult; it is expensive. This is no criticism of 
the FCC; this is just the way it has always been done. After numerous 
major events and other significant disasters, it is clear that a new 
model is necessary: a national architecture for public safety wireless 
communications.
    To achieve a nationwide, public safety, wireless, interoperable, 
broadband network, key elements need to be in place:

    The network must have sufficient capacity. To achieve a nationwide 
public safety broadband network--connectivity coast to coast, border to 
border--10 MHz of D Block spectrum, currently slated for FCC auction, 
must be added to the current 10 MHz of spectrum licensed to the Public 
Safety Broadband Licensee in order to build out a 20 MHz network. You 
can see on the spectrum chart, below, that this is the ideal spectrum. 
The public safety block abuts the D Block. This is perfect for public 
safety.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Only with this particular spectrum configuration, and none other, 
can public safety be assured that it will have the ability to build the 
network it needs now and into the future. S. 3756 will accomplish this 
one-time opportunity to get it right.
    Public safety must control the network. A single public safety 
licensee using a single technology operating on a network with 
sufficient capacity is required to handle day to day operations as well 
as the capability to manage major incidents. We cannot have commercial 
providers deciding what is or is not an emergency and what is the 
priority. Public safety transmissions have to go through without delay. 
A ``no service'' signal is not an acceptable element of incident 
command. The lives of firefighters, the lives of medics, the lives of 
law enforcement officers depend on this. This is our responsibility.
    Public safety expects to work with others and enter into public-
private partnerships. We will work with other state and local 
governmental agencies, federal partners, and utilities. But, public 
safety must have control over the operation of the network in real 
time. It cannot rely on commercial operators or a government agency to 
provide its critical governance needs. Network control will give public 
safety assurance that it will have full, pre-emptive priority over all 
of the spectrum on a when-needed basis.
    The network must be mission critical at the outset. In the 
beginning, this system will handle only data and video. At some future 
time--years away--we believe there will be a transition to mission 
critical voice. We all need to take a long term view--to start out with 
sufficient spectrum so that we will have the ability to migrate to 
mission critical voice. This will happen when the technology is 
developed, public safety has confidence in it, and its cost is 
affordable. Here are the key elements of ``mission-critical:''

  <bullet> The network must be hardened to public safety requirements. 
        This means towers must be able to withstand the elements that 
        might disable them. Towers in hurricane-prone areas and tornado 
        alleys must be designed accordingly. Back up electrical power 
        must be available 24/7. Redundancy is necessary.

  <bullet> The public safety mission critical voice network must have 
        the ability to broadcast and receive ``one-to-one'' and ``one-
        to-many'' and the ability to broadcast and receive without the 
        network infrastructure being operative. This is called ``talk 
        around'' mode--also known as simplex. This is a command and 
        control imperative. You know well that we operate under 
        extremely hazardous conditions. If the network, for any reason, 
        cannot provide connectivity, then we need the capability to 
        communicate without the network. This means communicating in 
        the simplex mode. This is the heart of public safety 
        communications.

  <bullet> The network must have back-up capabilities in the event of 
        network loss. We envision satellite capability for the network 
        to be available when a tower is disabled or other crippling 
        malfunction. Satellite can also cover remote areas that don't 
        have towers. Our mission is geography-oriented whereas 
        commercial carriers are concerned with population.

    Funding is important for the build-out of a public safety broadband 
network. State and local government budgets are challenged. The 
broadband network needed by public safety cannot be built without 
federal funding support. S. 3756 recognizes this fact. Both a 
Construction Fund and a Maintenance and Operation Fund will be created 
by this bill and authorized to a maximum of $11 billion for both funds. 
These funds will provide matching grant programs at the U.S. Department 
of Commerce to build the network and at the FCC to operate and maintain 
the network. The bill will fund the Construction Fund by auctioning, at 
a minimum, 25 megahertz of contiguous spectrum at frequencies located 
between 1675 megahertz and 1710 megahertz. These funding mechanisms are 
innovative and greatly appreciated.
    While S. 3756 is very good as written, there are two areas which I 
would like to see addressed as the bill moves forward:

  <bullet> First, there is reference throughout the bill for the FCC to 
        issue state licenses. This, we believe, will hamper 
        interoperability. Currently, seven states and the District of 
        Columbia have been granted early deployment waivers. These 
        states and D.C. have been granted FCC-approved leases by the 
        nationwide Public Safety Broadband Licensee. Only in this 
        manner--a single licensee--can nationwide interoperability be 
        assured.

  <bullet> Second, we have serious concerns about the flexible use of 
        narrowband spectrum envisioned in Section 103 of the bill. This 
        could lead to interference problems as well as reduce the 
        needed narrowband capacity.

    Mr. Chairman, the IAFC and Public Safety support S. 3756. This bill 
provides public safety with what it needs to begin the task of building 
out a nationwide public safety broadband network. We thank you for your 
personal attention to this issue and will work with you and the 
committee to assure prompt passage. We are more than nine years since 
the dreadful events of 9-11, thus we urgently need to move forward on a 
plan to develop the envisioned public safety broadband communications 
network. I am available to respond to any questions you may have.
The Public Safety Alliance
    The Public Safety Alliance is a partnership with the nation's 
leading public safety organizations, which includes the International 
Association of Chiefs of Police, International Association of Fire 
Chiefs, National Sheriffs' Association, Major Cities Chiefs 
Association, Major County Sheriffs' Association, Metropolitan Fire 
Chiefs Association, Association of Public-Safety Communications 
Officals-International, National Emergency Management Association and 
the National Association of State EMS Officials. The partnership is 
operated as a program of the Association of Public-Safety 
Communications Officials (APCO) International.
    The purpose of the Public Safety Alliance is to ensure law 
enforcement, fire and EMS agencies are able to use the most 
technologically advanced communications capability that meets the 
difficult, life-threatening challenges they face every day as they 
protect America.
    The goal of the Public Safety Alliance is to raise awareness in 
Congress and the White House about what our nation's law enforcement, 
fire, and emergency medical services need to build out a nationwide, 
interoperable, 4G, wireless communications network to protect America.

    The Chairman. Thank you, sir. That was a very positive 
statement.
    Dr. Ken Zdunek? Just say I said it OK.
    [Laughter.]
    Dr. Zdunek. Perfect.
    The Chairman. I've struggled with it. I lost sleep over it 
last night.
    [Laughter.]
    The Chairman. And you are the Vice President and Chief 
Technology Officer of Roberson & Associates, out of Chicago, 
Illinois. We welcome you.

              STATEMENT OF DR. KENNETH J. ZDUNEK,

          VICE PRESIDENT AND CHIEF TECHNOLOGY OFFICER,

                  ROBERSON AND ASSOCIATES, LLC

    Dr. Zdunek. Good morning, Chairman Rockefeller, Ranking 
Member Hutchison, members of the Committee. And thank you for 
the opportunity to testify regarding Senate Bill 3756, the 
Public Safety Spectrum and Wireless Innovation Act.
    I am currently CTO at Roberson & Associates, a consulting 
company that specializes in wireless. I also conduct National 
Science Foundation-sponsored research to improve mission-
critical wireless communications at the Illinois Institute of 
Technology.
    Prior to joining Roberson, my career for 33 years was at 
Motorola, where I architected that company's APCO-16-compliant 
public safety systems, developed patents on cellular roaming 
and cellular packet data, and led the network's research group 
in Motorola Labs. I share everyone's passion for providing 
public safety the resources that it needs for effective 
communications.
    My testimony is based on a study our company performed for 
T-Mobile USA, analyzing the potential use of a shared 700-
megahertz D-block commercial and public safety system as a 
supplement to a 10-megahertz dedicated public safety system, as 
recommended in the National Broadband Plan. Our study concludes 
that licensing the 700-megahertz D-block spectrum for 
commercial use is the best way to achieve the goal of having a 
nationwide interoperable broadband public safety network.
    Our analysis considered three important factors in 
determining that the National Broadband Plan represented the 
best path:
    First, we considered whether first responders would have 
sufficient dedicated spectrum if the D Block was used for 
commercial purposes. We concluded that, not only would public 
safety entities have sufficient spectrum, but that additional 
access to a densely built-out commercial network would provide 
significantly more coverage than a public safety system alone 
could provide. Commercial systems simply use many more base 
stations than do public safety networks. Each of those base 
stations provides frequency re-use, which multiplies capacity. 
So, a public safety network, with access to a commercial 
network, both using the long-term evolution, or LTE technology, 
which is expected to be the standard for 700 megahertz, can 
take advantage of frequency re-use and more capacity. This is 
especially important in rural areas.
    In addition, first responders can obtain more broadband 
capacity in other ways; for example, by using the 4.9-gigahertz 
band dedicated for public safety use for onsite communications. 
This is in a similar way that we all use Wi-Fi hotspots.
    Further, if integrating voice on the nationwide network is 
desired in the future, some of the 700-megahertz spectrum now 
designated for narrowband voice can be converted to voice over 
broadband. Any narrowband voice capacity still needed can be 
satisfied by spectrum allocated to public safety and other 
bands where there is substantial capacity, and where there'll 
be even more when the mandated narrowbanding, below 512 
megahertz, and rebanding, at 800 megahertz, is complete.
    The second factor we considered in evaluating the National 
Broadband Plan's proposal was the access that first responders 
would have to a commercial network at 700 megahertz. The LTE 
technology to be used provides priority access in a completely 
different way than today's circuit-mode systems. In a circuit-
mode system, when a channel is busy, other users are blocked. 
LTE's Internet protocol-based packet mode is completely 
different. When priority packets are imposed on a busy packet 
datastream, existing traffic is automatically slowed down so 
that the priority packets can be delivered faster. The concept 
of channel unavailability is not relevant. LTE can also inhibit 
lower-priority users from initiating transmissions at all 
during periods of congestion. This assures that access for 
public safety users is always available.
    As I said earlier, since commercial systems contain many 
more base stations than public safety systems, first responders 
will have priority access to much more infrastructure and, 
therefore, more capacity than in a single public safety 
network.
    The final factor we considered was the potential for radio 
interference to public safety networks from a commercial D-
block network. Because both systems use the identical LTE 
technology, there is little concern about the two using 
adjacent 700 megahertz bands. This is exactly the situation for 
commercial systems. Previous analyses combined worst-case 
scenarios--examined worst-case scenarios that would not be used 
in practice.
    In summary, our analysis confirms the viability of the 
National Broadband Plan and shows that 10 megahertz of 
dedicated public safety spectrum, coupled with the ability of 
public safety users to roam with priority and automatically on 
a commercial D-block network, will meet first-responder 
requirements for an interoperable broadband wireless network.
    Again, thank you for the opportunity to appear before you 
today. And I'm happy to answer any questions that you may have.
    [The prepared statement of Dr. Zdunek follows:]

    Prepared Statement of Dr. Kenneth J. Zdunek, Vice President and 
         Chief Technology Officer, Roberson and Associates, LLC
Introduction
    Good morning Chairman Rockefeller, Ranking Member Hutchison, and 
members of the Committee. My name is Kenneth Zdunek, and I am Vice 
President and Chief Technology Officer of Roberson and Associates, LLC, 
a technology and management consulting firm with government and 
commercial customers. We provide services in the areas of RF spectrum 
management, RF measurements, and technology management. I also served 
as Vice President of Network Research at Motorola, Inc. for nine years. 
I am an IEEE Fellow and research faculty member in Electrical 
Engineering at the Illinois Institute of Technology. Thank you for 
inviting me today to testify regarding S. 3756, the Public Safety 
Spectrum and Wireless Innovation Act.
Summary
    Our company was asked by T-Mobile, USA to perform a technical 
analysis of a shared 700 MHz D Block commercial/public safety system, 
as recommended in the National Broadband Plan. While there is 
understandable frustration about the delay in creating an interoperable 
public safety broadband network, any decision about how to proceed may 
still be premature until the FCC, with guidance from the public safety 
community and industry, is able to fully evaluate the complex issues 
that implementation of such a network raises. It is important to note 
that the types of public safety networks proposed in the National 
Broadband Plan and in S. 3756 have much in common--both seek to ensure 
the creation of a nationwide interoperable public safety broadband 
network introducing new levels of priority access to, and roaming on, 
commercial networks. The implementation and deployment of such a first 
responder network integrated with commercial systems presents a unique, 
once-in-a-generation opportunity. In order to proceed, careful analysis 
of many complex technical matters implementing the long term evolution 
(``LTE'') platform that 700 MHz systems are expected to share is 
required. These analyses are critical to the creation of an effective 
public safety broadband network regardless of whether S. 3756 is 
enacted.
    While we would welcome a more complete analysis of these technical 
issues before the FCC, our study confirms the conclusions of the FCC's 
June 2010 White Paper that assessed public safety spectrum needs. Like 
the FCC, our study concluded that allocation of 10 megahertz of 700 MHz 
spectrum for broadband applications, in combination with the spectrum 
that public safety already holds both in the 700 MHz band and 
elsewhere, is sufficient to meet current and future requirements and 
that those needs can best be satisfied under the National Broadband 
Plan. The allocation of the D Block for commercial purposes, combined 
with the convergence of commercial and public safety networks on a 
common LTE standard, presents a unique opportunity in the 700 MHz band 
to satisfy public safety needs on a combined public/private network 
better, and more quickly, than they could be satisfied on a stand-alone 
public safety network. While the goals of the National Broadband Plan 
and S. 3756 are the same, the results of our study leads me to 
recommend the Committee to support the National Broadband Plan and 
FCC's thoughtful and expert proposals as the best way forward for our 
public safety and wireless systems to meet the growing first responder 
interoperability and spectrum needs of the 21st century. The remainder 
of my testimony summarizes our study.
Public Safety Broadband Needs and Spectrum Capacity
    Our analysis strongly confirms the FCC's June 2010 White Paper 
assessing public safety's spectrum needs, which is the only recent 
realistic, systematic assessment of first responders' needs conducted 
to date. The capacity and throughput provided by a 10 megahertz network 
using the 700 MHz public safety broadband spectrum with LTE technology 
is sufficient on a system and sector-cell basis to meet immediate 
public safety broadband non-voice spectrum needs for day-to-day 
purposes and incident scene scenarios. Multiple high-quality video 
streams can be provided by this 700 MHz LTE network over a wide 
geographic area and commercially available technologies exist to 
provide increased throughput at cell-edges where signal strength may be 
lower. Indeed, the ability to re-use frequencies in a cellular format 
will make more video stream capacity available if an incident occurs 
over a broad geographic area. The broader the geographic area, the more 
potential base station sites a public safety user can access. In a 
geographically large disaster situation, public safety entities will 
have more capacity because of frequency re-use, an advantage further 
amplified through access to commercial networks.
    Operation of a first responder network which takes advantage of a 
more densely deployed commercial system may feature even more frequency 
re-use. While a public safety system featuring frequency re-use may 
employ hundreds of antenna sites in an urban area, a commercial system 
in that same urban area will employ many more transmitter sites, each 
sectorized to allow frequency re-use and enhanced capacity. For 
example, in its proposal for a 700 MHz public safety broadband system, 
the San Francisco Bay Area proposes the use of 203 sites. Over about 
the same area, T-Mobile uses more than fifteen times the number of 
sites--3,649. Therefore, by partnering with a commercial system, public 
safety entities can take the greatest advantage of frequency re-use to 
dramatically expand capacity.
    In instances where all of the 700 MHz spectrum is being used in a 
small geographic area with no opportunity for frequency re-use, 
additional broadband capacity is available through the 50 megahertz of 
4.9 GHz public safety broadband spectrum. In particular, the 4.9 GHz 
band can be a complement to the 700 MHz network, in much the same way 
as WiFi networks complement commercial wireless cellular networks 
today. Indeed, this use of the 4.9 GHz band is precisely what public 
safety had in mind when they urged the FCC to dedicate this spectrum 
for public safety operations. Sometimes, where there is a WiFi hotspot, 
wireless traffic connects to the WiFi network and not a cellular base 
station. Similarly, 4.9 GHz networks can take traffic off of the 700 
MHz broadband network to provide additional wireless capacity.
    In addition to using the 700 MHz spectrum currently dedicated for 
broadband use, other public safety 700 MHz spectrum can be rationally 
converted for broadband operations in the future to create an 
integrated voice and data network. At present, public safety has a 
total of 24 megahertz in the 700 MHz band. Twelve megahertz is 
dedicated to narrowband voice and 10 megahertz is dedicated to 
broadband, with a 2 megahertz guard band inbetween the narrowband and 
broadband operations to avoid public safety interfering with itself. 
Sound spectrum stewardship suggests that portions of this 12 megahertz 
of narrowband voice spectrum can be transitioned, over time, to 
accommodate voice on the broadband network. Our study indicates that if 
an additional 10 megahertz of today's 12 megahertz of narrowband 
spectrum is rationally transitioned to broadband in the future, leaving 
2 megahertz for narrowband voice operations, there would still be 
sufficient capacity at 700 MHz to create 160 traditional narrowband 
voice communications channels. Therefore, a combination of the 10 
megahertz of 700 MHz broadband spectrum with a portion of the currently 
allocated 700 MHz narrowband spectrum, as already requested by some 
public safety agencies, would allow a seamlessly integrated voice, 
data, and video public safety broadband network to be deployed, and 
would increase the maximum per user throughput and overall capacity 
achievable within the dedicated public safety network. Integrating 
narrowband voice capabilities on the broadband network using the 10 
megahertz we recommend would also avoid the construction and deployment 
of two networks at 700 MHz--one for LTE broadband operations and one 
for narrowband voice. Even assuming funding availability, the 
implementation of two networks is wasteful, expensive and inefficient 
and undermines the goal of interoperability.
    Finally with respect to public safety capacity, it is critical to 
recall that 700 MHz is far from the only source of spectrum for public 
safety narrowband voice capacity. The nearby 800 MHz band can provide 
280 narrowband voice channels and the public safety spectrum in the 
band 450-470 MHz offers over 70 voice channels. Over time, the spectrum 
in the band 450-470 MHz will be required to be converted to 6.25 kHz 
bandwidth (narrowbanding), providing a total of almost 600 traditional 
narrowband voice channels. Therefore, if public safety leverages the 
full complement of spectrum they are allocated in multiple bands, it is 
evident that there is sufficient broadband and narrowband capacity for 
public safety operations well into the future without reallocated D 
Block spectrum. Multiple bands are already being used by nearly 
everyone in this room and some public safety equipment manufacturers 
are already offering multi-band radios. Commercial wireless devices in 
your pocket already employ spectrum from the 800 MHz cellular bands, 
the 1.8/1.9 GHz personal communications service bands and the 1.7/2.1 
GHz advanced wireless service bands, and will soon use commercial 700 
MHz spectrum. There is no reason why public safety systems cannot 
leverage its spectrum holdings in the same efficient manner to create a 
nationwide interoperable public safety network.
Use of Commercial 700 MHz D Block Networks by Public Safety
    The National Broadband Plan's proposal for a public/private 
partnership will provide first responders substantial technical 
benefits that a stand-alone public safety system cannot. Primary among 
these benefits is the priority access to, and roaming on, what will be 
higher capacity commercial networks. As I noted, commercial networks 
are typically constructed with significantly more base station sites 
than public safety networks--even a public safety network with a 
cellularized buildout. In a public/private partnership, first 
responders will have priority access and roaming rights on these more 
fully developed private networks--not using only D Block spectrum but 
potentially spectrum throughout the 700 MHz band.
    The public safety network and the commercial networks at 700 MHz 
are all expected to use LTE technology. Critically, the packet nature 
of LTE allows public safety information to be prioritized over 
commercial traffic in a manner not possible on today's circuit-mode 
communications systems. LTE technology allows public safety information 
to be added to already-busy channels, so the concept of channel 
unavailability is not relevant. When priority packets are added to a 
data stream, they can effectively slow down other traffic and be 
delivered faster than lower priority users' data. The LTE architecture 
can also inhibit lower-priority users from transmitting during periods 
of high-priority congestion. This assures that access for public safety 
users is always available. In addition, the 15 priority classes and 9 
bit rate levels of LTE allow provisioning of commercial D Block 
networks so that public safety users can achieve any desired priority 
level.
    A good way to think about this LTE feature is its similarity to 
highway traffic management. Using old technology, when the highway was 
bumper-to-bumper, no additional cars could easily use it. LTE 
technology has the ability to monitor access to the on-ramps to the 
highway and regulate the traffic in each lane. It can create lanes with 
no traffic--for public safety--while leaving more congested lanes for 
commercial use. Therefore, even on a fully utilized commercial network, 
capacity can always be created for priority public safety 
communications. Importantly, if public safety has access to a densely 
deployed commercial D Block and other 700 MHz commercial systems, it 
will get priority access and roaming on more highways, with more lanes, 
than it could with a 20 megahertz less densely deployed public safety 
network.
    The fact that first responders could have priority access to, and 
roaming rights on, densely deployed networks is particularly critical 
in natural or man-made disasters. One of the reasons that public safety 
entities relied on commercial systems during the September 11 terrorist 
attacks is because the significantly greater number of commercial base 
stations available on commercial systems that remained operational. As 
I mentioned before, even if public safety systems adopt a cellularized 
infrastructure, they will not have the same number of sites as 
commercial systems. Priority access to, and roaming on, more densely 
developed commercial networks will help ensure that public safety 
always has a communications system on which it can rely--even when its 
own more limited infrastructure is not available. The public interest 
is therefore not well served by simply making sure that public safety 
has ownership of a limited highway but by giving it access to more 
roads than it could own by itself. A public/private partnership will 
give first responders significantly more access to more densely 
deployed networks than they would have if they relied solely a public 
safety network.
Limited Interference Risks
    In the past, public safety systems have experienced interference 
from adjacent commercial systems. First responders are still engaged in 
relocation of their 800 MHz band spectrum because of interference from 
nearby commercial operations. However, because of the projected use of 
LTE technology by both the commercial and public safety networks, there 
should be little concern about interference between the two using 
adjacent 700 MHz spectrum bands.
    Previous interference analyses of D Block and public safety 
networks in adjacent spectrum have employed the worst of the worst case 
scenarios whereby D Block sites are systematically placed where signals 
from public safety sites are weakest and most vulnerable to 
interference. While examining a worse-case scenario is useful from a 
theoretical perspective, it does not reflect realistic system 
configuration. The LTE air interface has been designed for adjacent 
networks in adjacent bands without causing harmful interference. The 
best situation, as described in the National Broadband Plan and other 
sources, is for the dedicated public safety network base sites to share 
infrastructure and co-locate when possible with the commercial D Block 
sites. Such co-location of public safety and commercial base site 
equipment is not uncommon today and would expedite public safety 
network deployment. Still, co-location is not a prerequisite to 
avoiding harmful interference between D Block and public safety 
networks. Any issues can be addressed during system design.
    Finally, analysis of the potential interference generated by user 
device transceivers with integral GPS receivers in the same device 
shows that any potentially harmful interference can be avoided with a 
number of well-known methods, including transmit filtering. Moreover, 
from an interference standpoint, there is little difference between a 
separate D Block and a combined D- and public safety block. Both band 
edges are in the same place relative to GPS signals.
Conclusion
    Taking all of the above factors into consideration, our study shows 
that the National Broadband Plan recommendation to auction the 700 MHz 
D Block and share facilities between commercial and public safety users 
is the best way that America can achieve a nationwide interoperable 
broadband public safety network. The Commission's plan for allowing 
first responders to roam on, and have priority access to, commercial 
networks in the 700 MHz band is highly desirable because of the uniform 
adoption of LTE technology that will enable them to benefit from 
cutting-edge technology. Roaming with priority access on commercial 
networks would best serve our country during emergencies and disasters 
when a less densely built stand-alone public safety network might 
otherwise become overloaded or unavailable. A commercial auction of the 
D Block would unlock the value of the spectrum for the delivery of 
commercial mobile broadband services while supporting the concurrent 
development of public safety broadband capability through many of the 
same equipment developments, roaming, and priority access requirements 
identified in the Public Safety Spectrum and Wireless Innovation Act.
    Thank you again for the opportunity to share my views with you 
today. I look forward to continuing to work with you going forward.

    The Chairman. Thank you very much.
    And next is Retired Admiral James Barnett, who is the Chief 
of Public Safety and Homeland Security at the Federal 
Communications Commission.

STATEMENT OF JAMES ARDEN BARNETT, JR., CHIEF, PUBLIC SAFETY AND 
  HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION

    Admiral Barnett. Good morning, Chairman Rockefeller----
    The Chairman. Who I don't think likes this bill.
    [Laughter.]
    Admiral Barnett. Good morning, Chairman Rockefeller, 
Ranking Member Hutchison, and members of the Committee. And 
thank you for the opportunity to testify today.
    The need for a nationwide interoperable public safety 
broadband network is indisputable. We can measure, in lost 
American lives and property, the cost of not having such a 
network. This committee showed great foresight, last year, when 
it charged the FCC with preparing a National Broadband Plan, 
including a specific direction to address broadband 
infrastructure and services in advancing public safety and 
homeland security.
    We approached this responsibility very seriously and with 
rigor. The foundation of the network must be facts and data. We 
researched each potential option--and that was over twenty 
options at one point--with an open mind and with due diligence. 
We had hundreds of meetings and communications with public 
safety leaders, and performed months of indepth research with 
experts across the nation, including engineers, scientists, 
economists, industry leaders, and federal partners.
    The three essential elements of network are: First, the 
network must be truly interoperable. Second, it must be 
nationwide, because if it's not, then really is not 
interoperable. And, third, the network must be technically and 
economically feasible. The nation must be able to afford to 
build the network. Companies must have the economic incentive 
to provide cost-effective equipment, devices, and services to 
support it. And public safety must be able to afford to operate 
the network.
    Interoperability does not occur naturally or inevitably, 
but it must be central to every decision about the network. The 
Commission has taken a major step in forming the Emergency 
Response Interoperability Center to establish a technical 
framework to ensure interoperability.
    Providing network coverage in rural portions of the country 
is also imperative for true interoperability. Accordingly, it's 
important that adequate public funding be considered to ensure 
that no area of the United States is left behind.
    Interoperability costs money, and we believe that the 
single greatest challenge to ever having a nationwide 
interoperable public safety broadband network is funding to 
both cover network deployment and operating costs. And this is 
why we prepared a detailed cost model.
    Based on our research, we determined that public safety 
should have a dedicated network, owned and controlled by public 
safety, and that the core of this network should be the 700-
megahertz broadband spectrum that the Congress has already 
dedicated to public safety. We have determined that this 
spectrum, with the latest engineering and with good cellular 
architecture, will perform as 160 megahertz would if you use 
the outdated technology that public safety is currently forced 
to use.
    This core will meet the needs of public safety for day-to-
day operations and for most emergencies. Unfortunately, America 
will also have other major disasters, and this network must be 
able to expand its capacity to overcome these disasters. For 
that reason, the FCC recommended that public safety be able to 
roam over onto commercial networks, with priority access, to 
provide as much as 60 additional megahertz of spectrum. This 
concept has the additional advantage of providing two or more 
backup networks, and, therefore, much more resiliency and 
redundancy than we currently have.
    Mr. Chairman and members of the Committee, let me assure 
you that our top priority in this matter is the same as yours, 
a nationwide interoperable public safety broadband network. And 
we will work with you, our federal partners, the states, the 
public safety community, and other interested parties, to 
achieve this goal, no matter what Congress decides to do.
    Time is a critical factor, because delay will cost the 
Federal Government far more money to build a network if we do 
delay. The commercial 4G network--4G broadband networks are 
being planned and built. Leveraging the commercial construction 
can keep our costs reasonable, but not if we delay.
    In closing, I appreciate the Committee's leadership on this 
important issue. The cost of not being prepared is too great. 
The cost of not seizing this technological opportunity cannot 
be recovered. There are vast areas of agreement on the plan for 
a public safety broadband network, and I know that we can build 
from that agreement to develop, together, a plan, going 
forward--smart plan, going forward, that meets the needs of our 
nation's first responders. And I look forward to working with 
public safety, our federal partners, and with you on this 
important endeavor.
    Thank you, sir.
    [The prepared statement of Admiral Barnett follows:]

 Prepared Statement of James Arden Barnett, Jr., Chief, Public Safety 
    and Homeland Security Bureau, Federal Communications Commission
    Good morning, Chairman Rockefeller, Ranking Member Hutchison and 
members of the Committee. Thank you for the opportunity to testify on 
the need for a nationwide, interoperable public safety broadband 
network.
    The need for such a network is indisputable. We can measure in lost 
American lives and property the cost of not having a nationwide, 
interoperable public safety network, and unfortunately, each disaster 
in America reminds us again. This Committee showed great foresight last 
year when it charged the FCC with the responsibility of preparing a 
National Broadband Plan, including a specific direction to address ``a 
plan for use of broadband infrastructure and services in advancing . . 
. public safety and homeland security.''
    We approached this responsibility very seriously, and we pursued it 
with rigor. Our aim was to approach each potential option--somewhere in 
the neighborhood of 20 different network concepts--with an open mind 
and in consultation with all stakeholders. Our quest required literally 
hundreds of meetings and communications with public safety leaders and 
months of in-depth research with experts across the Nation, including 
engineers, scientists, economists, industry leaders, and federal 
partners. The foundation of the network must be facts and data. The 
three elements that, in my view, are essential are: (1) the network 
must be truly interoperable; (2) it must be nationwide, because if it 
is not, then it is not truly interoperable; and (3) the network must be 
feasible, not only from an engineering standpoint, but also from an 
economic standpoint. The nation must be able to afford to build and 
operate the network, companies must have the economic incentive to 
provide cost effective equipment, devices and services to support it, 
and public safety must be able to afford to operate the network.
    The standard for interoperability should be that when a first 
responder picks up a broadband device he or she should be able to 
communicate with the right people and have the right information 
instantaneously, no matter where they are located. However, as past 
experience has demonstrated, this is a very hard goal to achieve. The 
Chair and Vice Chair of the 9/11 Commission recently stated that ``the 
9/11 Commission on which we served concluded that the absence of 
interoperable communications capabilities among public safety 
organizations at the local, state and federal levels was a problem of 
the highest order.'' To address interoperability, a number of actions 
are being taken. First, the Commission has formed the Emergency 
Response Interoperability Center to establish a technical framework to 
ensure interoperability. Second, the FCC, along with public safety, its 
federal partners and industry stakeholders are working to ensure that 
as the network is deployed and continues to evolve interoperability 
will always be job one.
    Providing network coverage in rural and less densely populated 
portions of the country is also an imperative for true 
interoperability. Network deployment in rural areas needs to keep pace 
with the rest of the country, including our big cities. Accordingly, it 
is important that adequate public funding be considered to ensure that 
no area of the United States is left behind, with the goal of covering 
99 percent of the country's population.
    Interoperability costs money, and we believe that the single 
greatest challenge to ever having a nationwide, interoperable public 
safety broadband network is funding, to both cover the cost of building 
the network and the cost of operating it. This is why we prepared a 
detailed cost model for the plan, which we subsequently published in a 
white paper. I urge the Committee to take advantage of this research, 
as well as our findings on network capacity.
    Based on our research, we determined that public safety should have 
a dedicated network, owned and controlled by public safety, and the 
core of this network should be the spectrum that the Congress has 
already dedicated to public safety. We have determined that this 
spectrum, with the latest engineering and cellular architecture, will 
perform as 160 megahertz would if you used the out-dated technology 
public safety is currently using. This core will meet the needs of 
public safety for day-to-day operations and for most emergencies.
    Unfortunately, America will inevitably face not just day-to-day 
public safety needs but the needs caused by occasional major disasters, 
and accordingly the public safety network must be able to expand its 
capacity to deal with extreme circumstances. For that reason, the FCC 
recommended that public safety be able to roam over to commercial 
networks with priority access to provide as much as 60 additional 
megahertz of spectrum. This concept has the additional advantage of 
providing two or more back-up networks, and therefore much more 
resiliency and redundancy than we currently have.
    Mr. Chairman and members of the Committee, let me assure you that 
our top priority in this matter is the same as yours, a nationwide, 
interoperable public safety broadband network, and we will work with 
you, our federal partners, the states, the public safety community and 
other interested parties to achieve that goal under any circumstances.
    I should note one last important point. Not only is time of the 
essence because of the need for us all to be prepared for the next 
catastrophic event, but also because more time in this regard will cost 
the Federal Government far more money. The commercial 4G broadband 
networks are being planned and built. The first public safety 700 
megahertz networks are being prepared for deployment as early as this 
year. Delaying the funding of the network actually will increase the 
cost of the network.
    In closing, I appreciate the Committee's leadership for taking up 
this important issue. The costs of not being prepared are too great. 
The costs of not seizing this technological opportunity cannot be 
recovered. There are vast areas of agreement on the plan for a public 
safety broadband network, and I know that we can build from that 
agreement to develop together a smart plan going forward that meets the 
needs of our nation's first responders. I look forward to working with 
public safety, our federal partners and you on this important endeavor. 
Thank you for this opportunity to talk to you.

    The Chairman. No, I thank you. And I also retract my mildly 
obnoxious comment because you are quite clinically neutral.
    [Laughter.]
    Admiral Barnett. Yes, sir.
    The Chairman. And from the FCC, that's a big improvement.
    [Laughter.]
    The Chairman. Let me start out and ask a question of Steve 
McClure.
    A number of witnesses have referenced this, but when we had 
our meeting, I had never been to a meeting like that. I'd had 
individual meetings with individual people. But, we had the 
National Guard, we had sheriffs, we had EMS, we had the 
emergency communications service, which, in West Virginia, is 
about five hundred years old. We had everybody. There were 
about twenty of us in a relatively small room, and there was 
consensus that we need to do this. It was almost like somebody 
had poked a wound. Everybody just came together. There was no 
dissension; there were just people pouring out frustration. And 
maybe because I was there, it was a chance to do it. But I was 
stunned by what you said because you talked about what I called 
your ``five minutes.'' If you go five minutes outside of 
Ripley, which is your state capital, so to speak, in Jackson 
County, you're dead on the cell phone, you have to use your 
other one.
    It has been suggested that a commercial auction approach to 
this would, in fact, satisfy your needs. And I'd like you to 
respond to that. You are forced, obviously, to rely on 
commercial carrier networks now. What are some of your problems 
with that, if you have them?
    Mr. McClure. Well, I think I answered that in my testimony, 
that I wouldn't feel--in my own opinion, I wouldn't feel 
comfortable relying on commercial. I have to rely on two now, 
and I still don't have coverage in the county. It just seems to 
me that, in my opinion, we would take care of ourselves better. 
We would look after ourselves better.
    One of the honorable commissioners from Kanawha County was 
talking about operability versus interoperability, and I, in my 
personal opinion, don't think that the commercial way is the 
way to go. I think public safety needs to control this and 
police themselves on this. That's, personally, my opinion.
    The Chairman. OK. Let me ask any and all of you. There has 
been a lot of debate about how much spectrum public safety 
needs for broadband, as I've indicated. The FCC staff and 
certain commercial interests, now somewhat more muted, maintain 
that public safety needs no more than 10 megahertz. I don't 
think that you actually said that, but let me finish my 
question.
    Admiral Barnett. I'm sorry. Yes, sir.
    The Chairman. But, I think they do. And I think they need 
to be side by side, which is what the advantage of the D Block 
is. And that makes a big difference. I don't know what your 
statistics are in the number of calls that you're getting and 
emergencies you're responding to, but I think they're going to 
grow exponentially, as will the population. And therefore, in 
your opinion, this reliance exclusively on commercial networks 
for public safety, what are the flaws that you see with that? 
Jackson County has answered, but I am interested in what others 
of you say. What are the differences between commercial and 
public safety networks? Are commercial networks built to 
withstand disaster conditions?
    Anyone.
    Mr. Davis. To your point, Mr. Chairman, that's exactly 
right. They're not mission-critical. That is to say that if you 
take a look at an average 911 Center, across the United States, 
we have redundant system built into redundant system, we have 
fail-safe after fail-safe, so that our 9-1-1 calls will come 
through and that we're able to dispatch to our officers in the 
field. We control that ability to dispatch to our officers in 
the field. We know that if we're simply relying upon the 
commercial networks, that those towers, or whatever it is that 
they're building, are not going to be built to the same 
mission-critical grade that we will require.
    Also, you're absolutely right, Mr. Chairman, in the future, 
so many differences are going to be taking place in public 
safety. We're going to be--there'll be a firefighter or a 
police officer who will be responding to an emergency, and they 
will have hand-held or a uniform-mounted camera, and streamed 
video will be going back to a control center, telling them 
what's happening, and also communicating with the officer or 
the firefighter about what they need to be doing. We can't 
afford, when we need to have these types of mission-critical 
applications, as they become available, coming to us and have 
to go to a commercial network to say, ``You know, we'd like to 
negotiate with you on whether or not we're going to be able to 
do this on our system.'' We've got to be able to control our 
own destiny. It's the mission-critical building--it's the 
criticality of having those backup systems, that we build our 
systems to, and the ability to be able to control what it is 
that we're doing on those systems.
    The Chairman. My time is expired. If somebody wants to 
add----
    Yes, please.
    Mr. Johnson. Thank you, Mr. Chairman. I think one of the 
other differences is, if you're the CEO of a private wireless 
carrier, your fiduciary is to generate a return for the 
shareholders, which means you're going to deploy your 
communications systems in highly dense areas. And the areas of 
the country and state that are more sparsely populated are not 
commercially feasible to put towers and infrastructure in. When 
we're in public safety, our obligation is to protect this 
entire country. Wildfires, hurricanes, and all sorts of natural 
disasters occur not just in dense urban areas. So, not only is 
mission-critical a component, but we have to have a broader 
view.
    Further, I don't think there's a board of directors of any 
wireless company in America that is going to rate the goodwill 
of their CEO on when they gave their entire network to public 
safety so we could run a very demanding call that generated a 
lot of emergency communication traffic at a point-specific 
area.
    Public safety has access, sir, to commercial networks now. 
We can buy a wireless card and use data systems today. That's 
not our issue. The issue is mission-criticality. The issue is 
control of the network so that when we need it, we can reach 
out and adjust it. And as the wireless carriers that attended 
and participated in the forum on Tuesday and Wednesday of this 
week said, ``It is not realistic to expect public safety will 
ever control our networks.'' And it's just a flawed model.
    Thank you, sir.
    The Chairman. I thank you very much.
    And, Senator Hutchison.
    Senator Hutchison. Well, I think that, listening to what 
you're saying, you're making very good points. What I am trying 
to do is put the goal and the practicality together, because if 
we turn this over to public safety, which I want to do, there 
is a huge issue of how to pay for it. Local communities and the 
states will be required to pay for this enormous building out 
of the network.
    Is there a way that you could feel comfortable with 
mandated preemption, letting the commercial people build out 
the network, at their expense, and then having preemptive 
rights from the commercial system? If the commercial people 
say, ``That is not a viable business model,'' then that's off 
the table.
    But, assume that it's a viable option; then the question 
becomes, Can preemption be strong enough to give public safety 
what it needs?
    So, I would like to ask both the Admiral, any of the public 
safety people, and the Mayor, who is going to be the one that's 
going to be finding the money to foot the bill? Obviously, 
there are grant possibilities at the federal level, and there 
could be, possibly, low-interest loans, and there might be 
other ways to augment and supplement local funds.
    But, there's going to have to be a local component, when 
every mayor I know and every Governor I know says that everyone 
is short of money in the public sector.
    So, I'd like to hear from the person who is going to have 
to find the money--the Mayor--and the public safety people and 
the FCC, to see if there is a preemption capability that would 
be viable enough that it could satisfy the needs of public 
safety, while having the investment needed to build out the 
systems come from the commercial sector. So, let me start with 
the Mayor, and then the Police Chief or the Fire Chief, and 
then Admiral Barnett.
    Mayor?
    Ms. Parker. Senator, as I indicated earlier, we're already 
paying for it now. And, as you know, the City of Houston is 
approximately 640 square miles, with a very large urban area 
around us. And, years ago, we made the decision--we went 800 
megahertz, the county went 700 megahertz, and literally, the 
smaller communities have been ponying up tax dollars to try to 
figure out whether they link to the two major commercial--or, 
rather, public networks for emergency response. And our concern 
is that the local communities are bearing all the costs now.
    I don't have an answer for you, whether it is better to----
    Senator Hutchison. But, will it be the same? Won't it be 
more to have this new band?
    Ms. Parker. No, ma'am. We're having----
    Senator Hutchison. Or, will it be the----
    Ms. Parker.--we're--we have to do it. We don't have a 
choice. And we're bearing the cost now. We----
    Senator Hutchison. And you don't think the costs would be 
greater.
    Ms. Parker. No, ma'am. I cannot tell you whether we can 
convince the commercial sector to build the towers in the areas 
that we need it, into the more rural pockets, where there's not 
the commercial applications that they might be seeking for 
their shareholders. But, for a U.S. Conference of Mayors 
standpoint, the concern is that--again, we support the bill, 
very strongly, but the bill envisions working with the states. 
And we believe that funding--we need funding help at the local 
level, and that's the request from the mayors.
    Mr. Johnson. Thank you, Senator Hutchison, for the 
opportunity.
    I think, first is, local money will continue to flow in, in 
some type of a match arrangement. As the Chairman of Oregon's 
Interoperability Council, the Oregon legislature has committed 
over $400 million to build out a statewide network. What this 
bill will allow us to do is have an adequate spectrum platform, 
of which--not only to address current needs, but also to 
address our future needs.
    If you take a retrospective look at what public safety's 
needs are for spectrum, we'd be looking into a chasm, because 
there have not been, historically, the applications and the 
tools that we need in the field. If you listen to AT&T, they've 
talked about a 5,000-percent increase in their network demand 
for the data side in the last three years since the 
introduction to the iPhone. I expect some of the things that 
Chief Davis talked about are going to be a very great reality 
in our very near future, but first we need the platform to ride 
on.
    I'd also like to talk about--I think public safety--once we 
have an adequate allocation of spectrum, I think we envision 
some kind of a relationship with private wireless carriers, but 
not on the critical components, not on whether the system is 
built to mission-
critical standards, not on whether we control the network. But, 
do we envision the possibility of a roaming agreement? Of 
course. Do we envision maybe, in rural areas, where we build 
out a public safety system that otherwise wouldn't be 
commercially viable for a wireless company to hang their 
equipment on our towers or share some less critical component? 
We think a lot of that makes sense, but first we need the 
spectrum that will allow us to have that kind of a discussion.
    And then, last, to discuss preemption. Preemption on a 
network that is down does not help public safety.
    [Laughter.]
    Mr. Johnson. We need a system that is up. And the reality 
is, is even if a commercial carrier were to allow us 
preemption, they have critical calls coming back from the 
customers who've--they've promised services to. We have people, 
trapped in cars on a bridge that's collapsed into a river, that 
are trying to make critical 9-1-1 calls in. And even if we 
filled the commercial network with preemptive communication for 
public safety, there are still meaningful calls that need to 
reach dispatchers, and there's critical information that needs 
to reach people that need to make decisions. And if we 
overwhelm a single commercial system, because we haven't 
allocated adequate spectrum to public safety exclusively, I 
think we'll shut down half of a very important network.
    Thank you.
    Senator Hutchison. Thank you.
    Admiral Barnett. Senator, with regard to preemption, yes, 
there are ways that they can control it. As Dr. Zdunek said, 
this is not your father's priority system, this is Internet-
based, this is LTE. But, there's a predicate to this, as well, 
that I want to make sure we understand. We're actually, at this 
point, talking about the backup systems. The core of the public 
safety broadband network is the 10 megahertz which will be 
owned and controlled by public safety. We're only talking about 
when those bad days--when that capacity is completely used up. 
And that capacity is tremendous. As I mentioned, it act--it 
will act, under the new cellular architecture and the new 
engineering, like 160 megahertz would on the old systems. It--
as a matter of fact, public safety has 20--25 times the 
spectrum per user as commercial interest does across the 
spectrum. So, it's a lot of spectrum for them to use. But, on 
those bad days, when they do roll up, or when they do have to 
roll over to commercial networks--I agree with Chief Johnson, 
his definitions for mission criticality, I think, are good: 
backup power, hardened networks, the ability to rollover to 
other ones. We've incorporated these things into the core 
network. We included those in the cost model, because we do 
believe the core network that they're going to use on day-to-
day operations or for most major emergencies has to be hard, it 
has to be mission-critical. The one thing that I would say that 
we incorporated into our plan, that I think I hear Chief 
Johnson borrowing, is the ability to have backup networks. In 
an area like Washington, D.C., there would be, I don't know, 
six or seven backup networks if the public safety network 
failed, as it did back in March. If our system had been in 
place at that point, they would have simply been able to roll 
over to a commercial network and continue to operate.
    Senator Hutchison. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    I think I'll start with you, Chief Davis. You talked about 
how D-block is critical for accessing information for first 
responders. You talked about new technologies like automated 
license plate information and infield biometrics video 
streaming. And could you talk about your understanding of the 
need for the full 20 megahertz of spectrum in the 700 megahertz 
bandwidth and why 10 megahertz won't work?
    Mr. Davis. Yes, thank you very much. It's an excellent 
question. We know what we know, and we know what we don't know.
    What we do know is that we are already using some very 
critical and innovative applications, as we speak, to try and 
help us. It has already been mentioned, by the good Mayor here, 
the budget situations that all of us are facing. Certainly, 
we're facing them in the City of San Jose; I've lost 8 percent 
of my department in the last 12 months. I have to rely upon 
technology to help me innovate and to multiply my forces.
    Currently, we have a system in place in San Jose, where, 
rather than stopping somebody in the field who doesn't have 
identification--and we believe we need to identify them--rather 
than needing to take that person back to the police department, 
we have a system in place, where you can take their thumbprint 
in the field, electronically, send that over our broadband 
system, and have that person identified in the field. Saves us 
time, improves the accuracy. That is but one technology that is 
currently out there and available to us.
    What we don't know is what's still coming. And we know that 
people are innovating. We're San Jose. We're the center of the 
technological universe, if you will.
    Senator Klobuchar. Well, there are a few others, you know--
Mark Warner, thinks Virginia----
    Mr. Davis. We'd give him some credit.
    Senator Klobuchar.--is the center of the----
    [Laughter.]
    Senator Klobuchar. I always claim Minnesota----
    Mr. Davis. Yes.
    Senator Klobuchar.--brought you everything from the 
pacemaker to the Post-it note.
    Mr. Davis. I appreciate that.
    [Laughter.]
    Senator Klobuchar. OK, thank you.
    Mr. Davis. Let me paint a picture for you, if I can, 
because this is where we know we're going. Let's--let me take 
you on a car stop of the future.
    A police officer is going to initiate a car stop. 
Currently, what do they do? They need to pick up the radio, 
call in the license plate, hope they got it right, approach the 
car, encounter the driver in the car, ask for a driver's 
license, since there's sort of--this exchange takes place. A 
lot of data needs to--take----
    Senator Klobuchar. Right.
    Mr. Davis.--transpire, usually by hand. But, in the future, 
here's what will happen: The police officer will stop the car. 
The camera in the car will automatically read the license 
plate. The license plate technology, reader technology, will 
transmit that back to the database, to immediately begin a 
search. The officer will approach the driver. He will look at 
the driver. The on-person camera will take a visual of that 
person's face, and facial recognition technology will kick in. 
He will engage the driver. He will speak. Voice recognition 
technology will kick in. All of these things improving and 
enhancing our ability----
    Senator Klobuchar. So----
    Mr. Davis.--not only to see locally, but with all of our 
partners in state and federal----
    Senator Klobuchar. So, what you're saying is you're going 
to need the----
    Mr. Davis. We know it's coming. We know it's coming.
    Senator Klobuchar. I have a few more questions here.
    Chief Johnson, I've heard from a number of your chiefs in 
Minnesota who are very active. And I just wanted to ask one 
very quick question about 9-1-1. One of the things that we're 
doing with our bill, the 9-1-1 bill; that would be of great 
help for firefighters is to have the ability that before 
entering a burning building, to actually download the blueprint 
of that building before they go in. And these are the kinds of 
things we're looking at, which spectrum could be helpful for. 
Very briefly, because I have some questions.
    Mr. Johnson. Senator, very insightful. I think, not only 
the blueprint of the building, but the closest unit to that 
call needs to be dispatched, which means we need to be pushing 
out GPS location of the unit just passing through the area, 
further. The future will hold for us the ability to control 
traffic signals, rather than pushing traffic out of the way 
with lights and siren. I think there are many, many 
applications that will help us, both, be effective and 
efficient.
    Senator Klobuchar. Admiral, in the case of an emergency, 
the FCC recommends public safety have priority to roam over 
commercial networks. Can you talk about the risks and benefits 
of doing that and some of the concerns raised by some of the 
other members of this panel? And then you also talked about 
delay, and how you're concerned about delay in terms of funding 
if we don't move quickly.
    Admiral Barnett. Yes, ma'am. The ability to roam over onto 
other networks--I think, as Chief Johnson indicated, public 
safety is actually interested. I don't think there's actually 
any disagreement on that. That's something that we've got 
slated and the FCC wants to move forward on. It just adds 
greater resiliency and redundancy. And for those days--you 
know, God forbid, the next 9/11--it will provide the amount of 
capacity that we would have available in any situation. We've 
incorporated these concepts into the plan.
    With regard to delay, one of the--I mean, we do--we are 
very concerned about the cost of the network. We think that's 
the greatest threat. So, by delaying--if we delay for any 
reason--the commercial 4G networks will continue to build out.
    One of the cost savings that we see is, if the public 
safety system can be built at the same time, it will reduce the 
cost by leveraging some of those constructions, to be able to 
use the sharing infrastructure, the towers, those sorts of 
things. If we wait until--we have to wait to actually send out 
another truck to put up the public safety equipment and 
antennas and that sort of stuff, it'll greatly increase the 
cost. So, we're concerned about that.
    We incorporated into our plan, also, the idea making sure 
that the rural areas gets coverage, as well, so that they don't 
have to rely on commercial networks going out there. So, as 
Director McClure mentioned, you know, what he needs out there 
is another tower to make sure that he has coverage, not 
actually more spectrum.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, thank you very much. The 
reason I didn't want to make any comments at the beginning is 
because you have a mayor on the panel. As a former mayor, I 
appreciate it and thank you.
    Mayor Parker, congratulations. I know it's delayed, but 
thank you for being here today and for the others that are 
here.
    I want to first start with you, if I can, Mayor. Then I 
have a couple questions. As a former mayor, someone who had to 
spend lots of money building out the LMR system and getting 
operability between all our systems, I know how it can be and 
what it can cost. And I want to just echo your comment, ``We 
love our states, but they're inefficient in delivery in systems 
where there is large areas.'' You mentioned 600 square miles 
that you have to cover. In Anchorage, where I was mayor, we had 
1900 square miles to cover. So, in our view, it would've been 
logical to just direct the resources right to our community 
because we would be able to deal with it. And also we would 
deal with our adjoining communities much easier than a state 
trying to do a state-wide perspective. Is that the position 
that the Conference of Mayors is focused on, and yourself? It's 
not saying the state shouldn't be part of the role, but there 
are regions that are more able to deploy and manage the 
development of their system. Is that a fair statement?
    Ms. Parker. Yes, sir. The U.S. Conference of Mayors is the 
larger cities in the United States.
    Senator Begich. Correct.
    Ms. Parker. It would be the National League of Cities that 
would represent many of the more rural areas. But, yes----
    Senator Begich. Yes.
    Ms. Parker.--we believe that the large urban areas, or 
those with already-built-out very sophisticated emergency 
response systems, should have direct access to federal support, 
if possible.
    Senator Begich. Let me make sure, Admiral, I understood 
what you had said. On the issue of roaming, there is no 
opposition to priority roaming for public safety in the 
commercial network systems.
    Admiral Barnett. I think there's broad agreement across the 
public safety community that they do want to have roaming with 
priority access.
    Senator Begich. And, from the commercial folks, there's no 
objection to that.
    Admiral Barnett. Well, we have talked to the--in the 
process of developing the National Broadband Plan, we talked to 
them about that. What they're--you know, the system is set up, 
the LTE is set up to do that. It has 15 levels of priority. 
What we would be considering, in our proceedings, is imposing 
upon them a responsibility to allow public safety to negotiate 
with them and be able to have priority access and roaming on 
that.
    So, it would be for compensation, as it is now for priority 
services, under the current systems.
    Senator Begich. Let me try it again. I want to make sure 
we're talking the same language. There's no objection to them 
being in priority position, but what I just heard was, as long 
as there's just compensation for where that priority fits and 
how you're paid.
    Admiral Barnett. Yes, sir.
    Senator Begich. OK. I want to make sure that's clear, 
because I will tell you--again, as a former mayor--those bills 
get big. And, you know, we would--and I'll put myself in the 
shoes of a mayor for a second--we would always love to say, 
``We should be priority one, but we can't afford it.'' How do 
you address a public product--that's what you're leasing from 
the public--and then when the public needs it, as a priority 
for public safety, which is the fundamental priority of any 
government, the compensation will determine the prioritization. 
How do you justify that?
    Admiral Barnett. Well, the compensation won't determine it; 
it will actually be the--in essence, the baseline for it. But, 
this is the reason why--and I think it's an unusual thing, and 
it's reflected in Bill 3756--that there needs to be operating 
funds. This is not just to build a network, but public safety 
is going to need money to operate, to maintain, and, an 
important thing, to upgrade the network. We want----
    Senator Begich. Understood.
    Admiral Barnett.--public safety networks to be able to keep 
up--as the commercial networks improve in technology, we want 
them to keep up with them. That's why we think the operating 
fund for them are very important. As I think both the Mayor and 
the Chief mentioned, they're paying commercial rates right now. 
We'd like to see that, I guess, transferred over----
    Senator Begich. Doesn't mean they like it.
    Admiral Barnett.--to their own----
    Senator Begich. They have to.
    Admiral Barnett. They have to.
    Senator Begich. Right.
    Admiral Barnett. So, I'd like to see it incorporated over 
into their own network and--so that there would be much less 
expense to them.
    Senator Begich. OK.
    Anyone on the panel want to respond to that discussion we 
just had here? Anyone have any additional comment?
    [No response.]
    Senator Begich. They're negotiating here, so----
    Mr. Johnson?
    Mr. Johnson. Senator, I'll take a run at that. I think the 
Admiral spoke correctly. I think we acknowledge there's 
strength to having roaming agreements. But--so, if we just 
focus on what we agree on, what we agree on is that there's 
added value to roaming, in how we envision the future public 
safety broadband network. We agree that 10 megahertz, as the 
public safety broadband core, is important. Where we disagree 
is whether 10 megahertz is enough.
    Senator Begich. Right.
    Mr. Johnson. And public safety's view is, it is not.
    Senator Begich. Right.
    Mr. Johnson. And the National Broadband Plan contemplates 
that it is.
    Senator Begich. OK. Thank you very much.
    My time is out, but I'd be interested in any regulatory or 
statutory issues that you think inhibit the ability for you to 
do the work you need to do, in the sense of expanding because 
lots of times we can legislate, but then when it goes into the 
federal bureaucracy, you never know what comes out of that. And 
the regulatory process is very burdensome. So, I'd be very 
interested in, what are the items that are really hampering 
your ability to pursue? You don't have to do that now, because 
my time is up, but if you could prepare something for me, I'd 
appreciate it. Thank you all very much.
    The Chairman. Thank you, Senator Begich.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, for holding this 
hearing.
    A lot of this is relatively esoteric, for lots of people. 
It's complicated, but to get down to the nub, what is the 
effect on the local community?
    Some advocate building a network used by both first 
responders and commercial companies. My state, New Jersey, is 
the nation's most densely populated state and home to what's 
identified by the FBI as the most dangerous 2-mile stretch in 
America for a terrorist attack. Now, if a shared public/private 
broadband network was built, what would happen during an 
emergency, in a state like mine, when police, fire, and other 
first responders, and residents, all need to use the network at 
the same time? Will we have the expanded use of the network 
available, no matter what the crisis or the load might be?
    Mr. Davis. Thank you, Senator.
    One thing I know that we don't want to happen is that, 
based upon our current experiences, the commercial networks are 
going to crash at some point as--if everybody is calling. What 
we can't have is to have the person running our dispatch center 
or controlling our radio communications and our data networks 
have to stop and call somebody to initiate preemption. That 
person, such as the Deputy Chief, down from New York P.D., 
here, needs to be able to hit the switch, do what he needs to 
do in that center to make it happen now. I can only imagine the 
types of protocols we would need to go through to hit the 
commercial entities to ask for permission for this preemption. 
And we just don't trust that. We know that those networks are 
going to get clogged. We know we'd be--we need to be able to 
control them at the public safety centers.
    Senator Lautenberg. You know, my state lost 700 people on 
9/11. And a lot of the people who were lost were those who were 
trying to help those who were stuck in the buildings. But, the 
fact of the matter is that it's believed that some perished and 
couldn't do what they wanted and were there to do because there 
was no way to communicate. And that's a disastrous situation.
    Before I came here, I was a Commissioner of the Port 
Authority in New York/New Jersey--it's a bi-state agency--that 
had so many of its police officers and other emergency 
personnel there. So, when we think of what happens when a 
couple of towns, located not too far away from one another, 
have problems at the same time, is there an override? Is there 
an ever-increasing expansion of the network to take care of the 
traffic, no matter how heavy?
    Dr. Zdunek. Senator, if I could----
    Senator Lautenberg. Please.
    Dr. Zdunek. If I could answer that.
    First of all, in times of emergency, it's--we agree, it's 
extremely critical for public safety to have instant access. 
And it's also important that we understand that the broadband 
network that we're talking about is primarily for data and 
primarily for video communications. So, the notion of--access 
to the network, for a packet network, will be automatic. The 
priorities for the public safety users, when they need access 
to the commercial network, will be built into the device, and 
that slowing down of the existing traffic and allowing the 
public safety priority traffic----
    Senator Lautenberg. Override.
    Dr. Zdunek.--will be--will override that traffic and will 
be automatic.
    Second, from the standpoint of multiple disasters in 
multiple communities, spectrum is important, but it is also, 
and maybe more important that the number of sites that cover 
those--that cover the geographic area, are provided. The more 
sites there are, the more capacity there is. Allowing public 
safety the priority access on a commercial network that will 
have many more sites and will be much more densely built out, 
will be of an extreme advantage in the situation that you 
describe, where there are multiple disasters, multiple 
situations that must be responded to in different geographic 
areas. Those geographic areas, those incidents, will be served 
by different cell sites, and the capacity will be there to 
serve those.
    Admiral Barnett. We recommended 44,000 sites across the 
nation, incorporated that into the cost model that we 
recommended to Congress.
    Senator Lautenberg. Mr. Chairman, I assume the record will 
be kept open and questions submitted will get a prompt 
response.
    And thank you all for the work that you do.
    The Chairman. Thank you, Senator Lautenberg.
    And now Senator Udall, to be followed by Senator Warner.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Rockefeller, very much.
    Admiral Barnett, the public safety network envisioned in 
the FCC's National Broadband Plan would use 10 megahertz of 
existing public safety spectrum, and, in emergencies, would 
provide an additional boost of spectrum from a shared public/
private network. Members of this committee have heard from 
public safety officials who are deeply skeptical of the FCC's 
approach. Given this skepticism, why should Congress have 
confidence in the FCC National Broadband Plan's proposal to 
build a public/private network? And, could you also comment on 
the rural part of this? New Mexico is a very rural state. And 
so, I'm wondering what your thoughts are, in terms of making 
sure that our service reaches all of those rural areas.
    Admiral Barnett. Thank you, Senator. I certainly understand 
public safety's concern with some of the experiences that 
they've had with their own commercial providers. But, as Dr. 
Zdunek said--just indicated, this is a new technology that will 
have, actually, these aspects built in. LTE has 15 levels of 
priority. They will be able to, you know, go to the first in 
line--and, really, first in line is not the best analogy; it's 
kind of like they have their own speed lane that they'll be 
able to use.
    With regard to rural, I'm very--I come from a rural state, 
Mississippi. I'm very concerned about that aspect of it, 
because if it's not nationwide, it really is not going to be 
interoperable. And we can leverage the commercial networks for 
about 95 percent of the network. So, you can envision a carrier 
putting up their own 4G antenna, you can also envision, at the 
same time--the public safety antenna going up at the same time. 
But, at some point, that--we've kind of reached the area that 
Director McClure mentions, where we're--it's too rural. And, 
for that reason, we incorporated into the plan the ability and 
the money to push additional sites and towers and equipment out 
there so it provides coverage to that. It's very critical that 
we fully fund that.
    D Block is reallocated. We think that that affects the 
markets and therefore drives up the prices, and we would have 
some concern that Congress would need to address this if the 
prices go up and then the cost goes up, in essence, for 
reaching rural areas.
    Senator Udall. And thank you very much.
    And I'd like the public safety witnesses to comment on the 
stand-alone public safety network costs, and whether it's worth 
it. As you all know, spectrum is a scarce and a valuable 
resource. Public safety officials should have the spectrum; 
they need to protect us in emergencies and during natural 
disasters. The FCC estimates it would cost $15.7 billion to 
build a stand-alone public safety network. And, as Admiral 
Barnett's testimony states, we could save $9 billion if we 
built a shared network with private phone companies that want 
access to more spectrum for commercial uses.
    I'd like to hear more from our public safety witnesses, 
particularly why they think the more expensive approach to 
building this network is justified, and, what are the added 
benefits, in terms of increased public safety?
    Mr. Johnson. Thank you, Senator. Is the cost worth it? I 
think, one of the things we need to recognize is that 
investment in these systems is going on today at the local 
level. And what I think an adequate piece of spectrum will do 
is, I think it will be focused investment in one specific area 
that we all are moving too. And I think that's going to happen 
over time. If we come up short, here, we're going to continue 
to address this by adding other swaths of spectrum, and we're 
going to end up with a multiple-device scenario and the 
interoperable problems that we have today.
    I think one of the issues you raised, that I think is 
excellent, is the issue of roaming and whether public safety 
has the adequate ability to access the commercial networks.
    During disasters--I can't overstate this--during disasters, 
business, city, county, all aspects of a government, have 
business-continuity issues that they're going to be using this 
exact network for. Additionally, if we want to reflect on 
September 11th, of the number of people in those towers calling 
9-1-1 and using the wireless networks, for us to overwhelm the 
network to achieve a public safety mission, and shut down 
meaningful communication from government, business, and other 
people, would be to ignore that these wireless companies have 
meaningful wireless clients and customers today that need to 
access their systems.
    Further, I think that even--even if preemption occurs, 
we're still going to run out of spectrum in public safety with 
an intense event where we are controlling our bomb robots, we 
are moving wireless video, we are running extensive fire, 
police, and federal presence at an emergency scene. I think 
even if we had preemptive authority, we're still going to need 
network control. And when you start talking network control, 
that's when the commercial carriers get very nervous.
    Senator Udall. Thank you very much.
    Ms. Parker. Senator, if I may, we're already spending the 
money now, at the local level. And that is--and that's not 
going to stop. And we're making a--we're creating a patchwork 
system today, hundreds and hundreds of millions of dollars.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. And, I appreciate 
your leadership on this.
    And, you know, it is remarkable that, almost a decade after 

9/11, we don't have this interoperability issue.
    I differ with some of my colleagues in public safety on 
this. I think we have talked about the 24 megahertz that we're 
discussing right now, in the 700 block. I think we also--bear 
in mind that there's another 7500--75 megahertz in lower 
spectrum, very good spectrum, at 500 level and other levels, 
that public safety also has. And, you know, having spent a long 
time in the industry, a long time ago, you know, recognizing 
how hard it is to get common standards and--great respect for 
all you do in public safety, but trying to get your radio 
engineers to decide on common standards, common equipment, has 
been a real challenge.
    And, quite honestly, I think we need to--I do believe that 
there's always going to be the problem that in this market, 
smallness in size is always going to be chasing the commercial 
market. So, your equipment, as always, in the current approach, 
is going to be three, five, ten times more expensive than the 
commercial side. I think that doesn't make any long-term sense. 
I believe there is an ability to prioritize.
    And again, we're talking about surge capacity. I think 
Admiral Barnett's comment right now that--it was, we move from 
narrowband to broadband. You are going to have the equivalent 
of 160 megahertz. That's enormous added spectrum that will be 
able to be used. And I do think there are ways, with 
appropriate prioritization, that you can join these surge 
moments and meet the public safety needs without breaking down 
the very valuable roles that the commercial networks have, as 
well. I believe that the more we can get now, there are 
additional equipment requirements you had, and hardened 
systems--but the closer we can get the commercial equipment to 
mirror the public safety equipment, again, if we're talking--
what Mayor Parker's looking for--how we bring down these 
costs--as long as this is a small market chasing the commercial 
market, we're never going to get close to equating the cost.
    I guess, I'd like to also ask, colleagues, a couple of 
questions. One is--you know, partially this is talking about 
what we do with the D Block. And I know there's disagreement, 
in terms of exclusivity that the Chief wants, and others, and 
whether that could be shared. I, frankly, believe there is a 
shared process. But, I guess, what I'd also like is--beyond the 
D Block discussion--is: how could we give you the appropriate 
incentives, in public safety, to think about your existing 
other narrowband spectrum you have, converting that to 
broadband as well, which expands your capacity? Have we thought 
about narrowband conversion to broadband, using the existing 
spectrum you've got, as well, for broadband, the enormous 
opportunities that adds?
    And again, I think about the challenges Mayor Parker has 
got. In Virginia, we finally bit the bullet on what--circa 
2004--was the most comprehensive interoperable system for all 
of our state services and our STARS market. The problem is, 
technology keeps moving ahead, and, by the time we make that 
investment, the commercial market's moved ahead and we're 
antiquated already.
    One of the things I think would be, and it's not part of 
the discussion so far, but just to stir the pot a little bit, 
as we move toward more of a broadband system, could we even 
think about, on an optional basis, for communities to say, OK, 
some of that lower spectrum, that may not be fully used as you 
migrate to more broadband, perhaps we could look at incentive 
options to give those communities that might have excess 
spectrum, the chance to throw those into a bucket on an 
incentive option and share some of the proceeds. Because, 
Parker, my concern is that the notion that the Federal 
Government is going to continue to ante up for, not only total 
construction costs, but ongoing operating costs. And you 
continue to make your local government or state government 
costs. I just think there's not enough money to have this all 
happen.
    And I would just ask the public safety community--and I 
look forward to working with the Chairman and the Ranking 
Member on this--to think about other revenue sources, to think 
about how we can migrate more spectrum into broadband, you 
know, to not close your minds about what we could do to, kind 
of, guarantee you on priority access and co-location. Again, 
and we think about rural communities. I've used up most of my 
time, but, you know, feedback on this notion of narrowband to 
broadband and some of the other spectrum that's really been not 
the subject of today's testimony, but how, as we move to 
broadband, that could be, perhaps, better utilized and give you 
a revenue stream.
    Mr. Johnson. Thank you, Senator and members of the 
Committee.
    So, let me just start by acknowledging your point about co-
productivity of the commercial devices. That's part of our 
vision, as well. But, we're talking about the devices, and you 
can make small changes by the inclusion of band 14, in the 
engineering of the commercial devices that cover our spectrum, 
and then that does make those devices more coproductive. And it 
allows us to help, as you would say, chase the commercial 
market at more their pace.
    You know, our emphasis has been on the spectrum and the 
network and the infrastructure, and I'm going to set that aside 
for just a moment.
    Regarding the narrowband voice channels, you correctly 
articulated that, currently allocated, we have 10 megahertz of 
broadband in the public safety broadband swath; 12 megahertz of 
narrowband voice; and 2 megahertz to guard those bands----
    Senator Warner. Guard----
    Mr. Johnson.--from interference. If we were to employ the 
12--if we were to convert some of the narrowband today, we 
believe the interference would be drastic with the narrowband 
channels. I think there may be a logical date where we can 
migrate some of that capacity to broadband.
    I would tell you, based on what I've seen, Senator, we're 
15 years out before some of these technical issues can be 
solved and some of the operational issues can be----
    Senator Warner. Of course, I have to remember, back in the 
1980s, when everybody in wireless, when I first got involved, 
said, ``You know this cellular stuff is going to be really big. 
After thirty years we'll build out one national network, and 3 
percent of Americans will have cell phones.'' Luckily for me, 
and, I think, for the American people, they were wrong. I 
think, in this area, if we can leverage some of the commercial 
applications, we can be more aggressive.
    Any comments on some of the lower spectrum, as we think 
about this additional, you know, voice spectrum? You've also 
got voice spectrum at much lower bands that are extraordinary 
valuable.
    Mr. Johnson. Yes, Senator, I think when the Admiral talked 
about the 160 megahertz currently allocated to public safety, 
that's across all the bands. Some of those bands do not lend 
themselves well to broadband high-speed data application, and 
some of them do more so. So, what we've focused on here is the 
spectrum that is best suited to achieve our broadband needs. Is 
there a date in the future where some of the spectrum that we 
currently operate land/mobile radio on could become available? 
I think that's a very realistic possibility.
    Senator Warner. And I'd ask you--and I know my time's 
expired, to think about--you know, I can't imagine us forcing 
you to give that up, but I would love for the public safety 
community and local governments, who have to foot the bill, to 
think about what kind of incentives could be used, and perhaps, 
again, through incentive auctions with shared proceeds that 
might give you that revenue stream, that might give that win-
win. Because my concern is about all these stand-alone networks 
and the bill that is footed by the Federal Government, it's 
going to be a rough challenge.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warner.
    Let me just close with a couple of questions.
    First of all, there has been a lot of talk about, If we're 
going to be able to afford this, and where money is going to 
come from? That's all answered in the bill. It's going to pay 
for itself. And it's going to come from three sources: revenues 
from the incentives auctions, which is included; second, 
revenues from the auctions of specific spectrum bands, by which 
I mean specific spectrum that has been identified for 
repurposing such as the NOAA and the spectrum known as AWS3 
band, that's a second source of revenue; and third, revenues 
from the lease of networks to secondary users.
    Now, that's all kind of esoteric talk, but it all turns 
into a great deal of money. And, in effect, it pays for 
everything that we've been talking about here this morning. So, 
this question of who's going to pay for it, how we are going to 
do it, is solved by the bill itself. It's just that the bill 
isn't that well known.
    Second, we are going to be working leveraging with 
commercial interests. There's the thought that we're not going 
to do that. We are. But, please don't try to convince somebody 
from West Virginia that commercial wireless operators or 
broadband operators have any interest in rural West Virginia; 
they don't, because there's no money there.
    That was the problem with the mine safety explosion. It 
took place way up ``a holler,'' as we say. And, you had this, 
sort of, horrible sight of these miners' families waiting to 
see if their miners were alive, and they couldn't call anybody, 
because there was no cell service. There were landlines, but 
only a couple at the coal plant operation. So, you had this 
sight which was witnessed by the national media, of truckloads 
of Verizon people coming with huge poles, trying to put up more 
landlines, which doesn't happen in a day, so that people could 
communicate with their relatives. Now, I'm not even talking 
about public safety and the problems they had.
    Thirty-one percent of West Virginians have absolutely no 
access to cell whatsoever, by the decision of broadband 
companies. The commercial sector made the decision, ``There's 
no money to be made in large swaths of West Virginia, and 
therefore we don't do it,'' Mr. McClure, ``We're not going to 
do it,'' and, indeed, they don't. Talk about it, but they 
don't. And oh, they talk about it, but they don't. And Steve 
McClure knows that part of the problem in West Virginia is 
topographical. Only 4 percent of our land is flat. That means 
that 96 percent isn't.
    [Laughter.]
    The Chairman. And so, even on the interstates, if you live 
there long enough, you actually learn, because the interstates, 
obviously, are huge open areas, where obviously cell phones are 
going to be available. No. You learn, if you're driving on the 
interstates in West Virginia, those particular places where you 
can make a cell phone call.
    Now, this is the way the commercial sector works, because 
they won't put up the towers. That's why we have to have the 
money provided in here for you to put up the towers, because 
they won't. They won't do it. Their shareholders don't require 
that. The public does require that, which is why the extra 10 
megahertz is important; and the paying arrangements are 
important, not only for the building out, but the operating of 
all of this.
    But telecommunications companies are not kind to rural 
areas because it's not in the interest of their shareholders to 
be kind to rural areas. And, I'm sorry, but that's just the way 
it is.
    Now, I understand that T-Mobile and Sprint and others, 
they're against this because they want to buy the 10 megahertz 
themselves, so of course they're against it. And, they wrote 
part of the proposal, or the plan, that you referred to. So, of 
course they have a point of view.
    My point of view is to make sure that you have everything 
that you need, the money to do it, it's set aside so there are 
no vagaries. And yes, you're going to cooperate with 
commercials. And yes, you're going to hang, as you said, I 
think, Mr. Davis, things on the towers; of course the 
commercials can use that. But, the towers are going to be out 
there, where emergencies will be taking place, which is 
virtually everywhere, which is a very large project, which is 
why we need the extra 10 megahertz.
    Now, there are those in the Administration who don't want 
to do this, although now I'm feeling much better about the FCC, 
if we don't do this, what will we be saving? What do they want 
to do with this 10 megahertz? Well, they want to sell it or 
they want to do whatever. Why do they want to sell it? To 
reduce the deficit. Well, that's a good idea. So, how much 
would it reduce the deficit? Maybe $2 to $3 billion.
    So, you're left with the moral choice of $2 to $3 billion 
of deficit as we're about to extend tax cuts for billionaires 
and millionaires, on into the distant future, I think. Terrible 
idea. But, if we're going to do that, we have to come down to a 
choice of priorities. And I mentioned that with a Veterans 
Committee hearing this morning. If you're going to take care of 
veterans and they have been hurt by toxic problems that emanate 
from the Agent Orange era, which, incidentally, would have 
never really revealed itself if Admiral Zumwalt had not, 
himself, gone before the public. It wasn't Congress, it wasn't 
the Administration, it wasn't anybody who talked about it; it 
was Admiral Zumwalt who said, ``My son was killed by Agent 
Orange.'' And all of a sudden the Congress sprang into action 
and did a lot of things.
    Well, that's the situation here. We have sort of an Agent 
Orange question of the incapacity of you to serve the purpose 
for which you accept much lower salaries than you could 
otherwise get and put your lives at risk to help others. It's 
such an easy choice. We can pay for it, we can do it. We do the 
20 megahertz. Yes, we cooperate with the commercials but don't 
depend on them, because they won't go out to the rural areas. 
You need to. And I--there'd be parts of urban areas they won't 
go to. You know, there are parts of cities they won't touch. 
Other parts of cities, which are prosperous and have lots of 
businesses, they will touch.
    But, it's a national preemption, a priorities problem, and 
this is the chance to do it. It will be a national 
embarrassment--Senator Warner mentioned them--this, himself--
the sheer national embarrassment if we come up to September 11, 
2011, and we don't have this system or we don't have it being 
developed. I don't know how many people perished from your 
services in 9/11, but there had to be a tremendous number of 
them, and they couldn't communicate with each other. It goes 
back to the first Gulf War, when nobody could communicate with 
each other. And the services couldn't communicate with each 
other. We just have a terrible communications problem. Well, 
this is one place where we cannot have it. And you have to have 
the capacity; you have to have the range. And we're just going 
to keep working at this and having hearings on this until we 
get it done.
    And, I'm actually very happy about the FCC. You've become 
my new best friend.
    [Laughter.]
    The Chairman. Because your National Broadband Plan had a 
sort of a different tack on it, and it didn't necessarily go 
for the extra megahertz. But, I read neutrality, at least, in 
you. And I think that's really good. Now we have to work on the 
Administration to feel exactly the same way, which is why it's 
so important that you all showed up and gave your good 
testimony.
    So, get it done, we must. A question asked, I did not; but, 
I made a statement that I had to make.
    And, with that, the hearing is adjourned.
    [Whereupon, at 12:04 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, for holding this hearing on public safety 
communication. As we all know, the 9/11 Commission report cited the 
inability of first responders to communicate with each other as a 
significant challenge to providing comprehensive response on that 
horrific day. The report also found that ``compatible and adequate 
communications among public safety organizations at the local, state, 
and federal levels remains an important problem.'' Even with that 
warning we witnessed the very same problems during Hurricanes Katrina 
and Rita where public safety officials had to actually run handwritten 
notes between command centers since different agencies were unable to 
communicate with each other via radio.
    Given that we just observed the ninth anniversary of 9/11, it is 
deeply troubling that public safety still does not have the nationwide 
interoperable communications network it requires to effectively respond 
in times of national or regional emergency. A nationwide interoperable 
public safety network is long overdue but I am concerned the recent 
debates about the D Block will unfortunately only delay the deployment 
of this critical asset.
    As we all know, in 1997, Congress directed the FCC to provide 
public safety agencies with spectrum in the 700 Megahertz band. A 
decade later the FCC established rules for the construction, 
deployment, and operation of a nationwide public safety broadband 
network through a public-private partnership. The FCC unsuccessfully 
attempted to auction off the D Block spectrum for this network.
    However, the National Broadband Plan, which the FCC released 
earlier this year, recommended this spectrum be put up for auction 
again and that a spectrum-sharing partnership be created where public 
safety can use in times of an emergency. While several wireless 
carriers have supported this recommendation, others, including some 
public safety organizations, have opposed it and support direct 
allocation of the spectrum to public safety.
    Doing so certainly presents its own issues and challenges--
primarily funding. How are we going to ensure that public safety has 
the necessary funds to pay for a nationwide interoperable network? If 
we don't have adequate funds, we will only exacerbate the problems we 
currently face.
    It must also be recognized directly allocating additional spectrum 
to public safety won't automatically cure the problem that continues to 
plague public safety communications--the lack of interoperability. If 
the lack of interoperability continues to be an issue, no amount of 
spectrum is going to be effective. That is why I am very pleased the 
FCC recently established ``ERIC''--the Emergency Response 
Interoperability Center--a recommendation of the National Broadband 
Plan. ERIC will assist in ensuring that applications, devices, and 
networks used by public safety organizations all work together, so that 
first responders nationwide will be able to communicate with one 
another seamlessly.
    One thing which deeply concerns me about the fracture that has 
developed on this issue and with spectrum policy in general is the lack 
of trust that seems to be developing among parties. While public safety 
can make a strong case for why it needs its own spectrum, other 
stakeholders are also making similar claims. But this sense of absolute 
entitlement presents a serious problem since spectrum is a finite 
resource--and we cannot manufacture new spectrum. With growing demand 
for spectrum but a limited supply of it, such traditional thought of 
direct allocation will not get us very far and a spectrum crisis will 
truly present itself.
    The only way we are going to prevent any looming spectrum crisis is 
through a multi-faceted solution that includes robust spectrum 
management policy, which utilizes spectrum sharing and reuse 
opportunities, and technical innovation that improves spectral 
efficiency so spectrum holders can do more with less. But if there is a 
lack of trust then it will be difficult if not impossible to employ 
spectrum sharing and reuse practices and, as a result, we will not be 
able to meet the future needs of all spectrum users and Americans will 
suffer--in both innovation and national security.
    This is why Senator Kerry and I have introduced comprehensive 
spectrum reform to modernize policy and fix fundamental deficiencies in 
our nation's radio spectrum management and coordination activities. 
Taking this corrective action will allow us to meet the growing demands 
for spectrum that both commercial and government users are 
experiencing. For consumers, these fixes will lead to additional 
choices, greater innovation, lower prices, and more reliable services.
    The fate of the D Block is not the only important issue we face in 
addressing the need for a nationwide, interoperable public safety 
network--I unfortunately think some parties have forgotten this. I hope 
this hearing and the witnesses testifying today will shed light on all 
the challenges we face and the solutions to overcome them.
    I do have some concerns about the legislation being reviewed today 
but I am more than willing to work with the stakeholders and you, Mr. 
Chairman, to properly address this matter. The nation has for too long 
lacked a nationwide interoperable public safety network, so we need to 
find the quickest and most feasible path to achieve that goal.
    Thank you.
                                 ______
                                 
                                                      July 21, 2010
Hon. John D. Rockefeller IV,
Chairman,
Commerce, Science, and Transportation Committee,
U.S. Senate,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Commerce, Science, and Transportation Committee,
U.S. Senate,
Washington, DC.

Hon. John F. Kerry,
Chairman,
Communications, Technology, and the Internet Subcommittee,
U.S. Senate,
Washington, DC.

Hon. John Ensign,
Ranking Member,
Communications, Technology, and the Internet Subcommittee,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller, Ranking Member Hutchison, Subcommittee Chair 
            Kerry, and Subcommittee Ranking Member Ensign:
    We are writing to express our strong support for the reallocation 
of the D Block spectrum for public safety. The Public Safety Alliance 
(PSA) and leading national associations representing America's state 
and local governments, known as the 
``Big 7,'' join us in our support.
    After almost nine years since the catastrophic events of 9/11, our 
nation's first responders still lack crucial access to interoperable 
public safety broadband communications. Over time, public safety has 
been granted only small sections of spectrum but never enough to 
consolidate communications into a single frequency band. This means 
that when multiple agencies respond to an event, they cannot 
communicate with each other because they each use radios operating on 
different portions of the spectrum.
    In March 2010, the Federal Communications Commission (FCC) released 
their National Broadband Plan. The plan calls for auctioning the 
government-owned part of the broadband spectrum, known as the D Block, 
to the highest bidder, with an understanding that the winner would 
provide priority access to public safety. However, this is woefully 
insufficient. During times of crisis, commercial networks are the first 
to fail because of inferior infrastructure and high-usage demand. A 
public safety network must be able to withstand an assault to its 
infrastructure and endure the highest usage demands of first responders 
during ``mission critical'' times. The D Block must be allocated 
exclusively to public safety in order to protect our citizens.
    Legislation is necessary to allow the FCC to reallocate the D Block 
to public safety. Representatives King and Clarke are spearheading 
legislation to achieve this goal. In the House, The Broadband for First 
Responders Act of 2010, (H.R. 5081) has gained more than 40 bipartisan 
co-sponsors since its introduction in late April 2010; we ask for your 
support and Senate sponsorship of a companion bill.
    Without this crucial legislation, the FCC is required to auction 
the D Block. The first attempt by the FCC to auction the spectrum 
failed in March 2008 because of the viability of forming a partnership 
agreement between the auction winner and public safety. Public safety 
officials, service providers, and infrastructure vendors agree that a 
more effective method would be to reallocate the D Block directly to 
public safety. The additional 10 MHz of spectrum will be combined with 
the current 10 MHz of spectrum allocated for public safety, in order to 
create a 20 MHz block of spectrum to build a nationwide public safety 
broadband network. When built, the new broadband network will be able 
to support a broad range of public safety, government, and critical 
infrastructure and consumer applications, such as voice, video, and 
data services.
    The FCC has granted 21 conditional waivers and has received an 
additional 11 petitions for waivers, either to/from states or 
localities, to build-out an interoperable public safety broadband 
network in the 700 MHz spectrum. When these network build-outs begin, 
if public safety does not have ownership of the D Block, costs will be 
higher and the system created will not meet the full requirements of 
public safety. With the D Block reallocation to public safety and 
funding for network build-outs, our nation's first responders will have 
the required communication needs to provide the most effective service 
to every American.
    Our nation cannot afford to miss this one-time-only opportunity and 
we call on you and your colleagues in Congress to support our first 
responders who put their lives on the line every day to protect and 
serve their communities by introducing and passing a companion bill to 
H.R. 5081: The Broadband for First Responders Act of 2010.
            Sincerely,
                                Governor David A. Paterson,
                                                              New York.
                           Governor Theodore R. Kulongoski,
                                                                Oregon.
                                        Governor Pat Quinn,
                                                              Illinois.
                                      Governor Jim Gibbons,
                                                                Nevada.
                                Governor Chester J. Culver,
                                                                  Iowa.
                                  Governor Martin O'Malley,
                                                              Maryland.
                                 ______
                                 
        Prepared Statement of Philip C. Stittleburg, Chairman, 
                    National Volunteer Fire Council
    Since well before the September 11 attacks, first responders have 
had a clear need for additional radio spectrum space so they can 
communicate more effectively. In the wake of those terrorist acts, the 
9/11 Commission made it clear that providing more radio spectrum to 
emergency services was a priority for improving both security and 
safety. Gaining access to a greater range of the spectrum would allow 
emergency services personnel to communicate more effectively.
    On July 31, 2007, the Federal Communications Commission (FCC) 
revised plans to auction portions of the 700 MHz band of radio spectrum 
in order to create a nationwide interoperable broadband network for use 
by public safety. The revised FCC rule bundled electromagnetic spectrum 
bands of 758-763 megahertz and 788-793 (the D Block) with 12 MHz of 
spectrum already designated for public safety to be auctioned to a 
private entity that would have entered into a partnership with public 
safety organizations to develop a shared nationwide interoperable 
network for commercial and public safety users. Public safety users 
would have had priority access to the network during major emergencies. 
Originally, commercial entities like Google and Verizon Wireless 
expressed interest in the commercial market, but the auction, which 
took place in January 2008, received only one bid that fell far short 
of the $1.33 billion reserve price set by the FCC.
    In March 2010, the FCC proposed that the D Block be put up for 
auction again, only this time without the conditions that private 
bidders were required to meet in the previous auction to address the 
needs of public safety. This would basically leave public safety with 
only the spectrum it is licensed for and not enough to build out an 
effective nationwide public safety broadband network. Additionally, 
once the D Block is auctioned it would be gone forever--public safety 
won't get a second chance.
    The NVFC's top priority for public safety communications is for 
establishment of a nationwide broadband network with requisite funding. 
This requires the D Block to be allocated, by Congress, directly to 
public safety. This will provide for the establishment of a nationwide 
broadband network that volunteer departments can access at a cost 
effective rate and would allow rural, volunteer emergency service 
agencies to upgrade intra- and interoperability without making 
significant outlays for new equipment.
    All public safety agencies face significant resource constraints 
but most volunteer fire and EMS departments operate on a shoestring 
budget even during the best of economic times. Volunteer agencies 
commonly serve rural areas that tend to have low population densities 
and a high poverty rates. Most volunteer agencies have to rely on 
private fundraising to supplement taxpayer contributions to their 
operating budgets. In communities of 2,500 residents or fewer, private 
donations make up close to 20 percent of the budget of volunteer fire 
departments, on average.
    S. 3756 addresses the communications needs of the public safety 
sector generally by directing the Federal Communications Commission 
(FCC) to, ``. . . take all actions necessary to ensure the deployment 
of a nationwide public safety interoperable broadband network in the 
700 MHz band . . .'' The NVFC is particularly pleased that the bill 
specifically recognizes the communications challenges facing emergency 
responders outside of densely populated areas, declaring that the FCC, 
``. . . shall ensure that the network is deployed and interoperable in 
rural, as well as urban, areas, including necessary build out of 
communications infrastructure in rural areas to accommodate network 
access and functionality.''
    S. 3756 also addresses concerns that had been expressed publicly by 
the FCC about the feasibility of creating a nationwide broadband 
communications network for public safety using the D Block, which 
revolved around a lack of funding to build it. The bill creates a 
``Public Safety Interoperable Broadband Network Construction Fund'' and 
a ``Public Safety Interoperable Broadband Network Maintenance and 
Operation Fund,'' ensuring that the resources will be available to 
build this vital communications tool for public safety users.
    The NVFC strongly supports S. 3756 and asks the members of the 
Committee to vote to report the bill favorably so that it can be taken 
up and passed by the full Senate. It is crucial that this bill be 
enacted this year so that the FCC and public safety can begin to work 
together on building the much-needed broadband communications network.
                                 ______
                                 
          Prepared Statement of The Utilities Telecom Council
    The Utilities Telecom Council (UTC) appreciates this opportunity to 
provide a Statement for the Record to the Committee regarding a 
nationwide interoperable public safety broadband wireless network. 
UTC's statement will focus on the need for Congress to: (1) Ensure that 
the public safety community is afforded the maximum flexibility in the 
build-out and operations of a nationwide public safety broadband 
wireless network; and (2) Encourage innovation and regional flexibility 
by allowing public safety to execute agreements to build, operate and 
share the public safety network in a manner which best suits their 
needs and the circumstances as well as broader public safety interests, 
especially during emergencies.
Introduction
    The Utilities Telecom Council (UTC) is the only trade association 
devoted to the telecommunications and information technology interests 
of critical infrastructure (CI) entities. Through its core members and 
affiliated trade associations, UTC represents virtually every electric, 
gas, and water utility and energy pipeline in the country--including 
public, cooperative, federal and investor-owned--on issues affecting 
their communications networks and infrastructure. UTC also encompasses 
an associate membership that includes a wide variety of the nation's 
largest equipment manufacturers, engineering companies and others that 
support the communications needs of its core members. These diverse 
members have united to ensure the integrity of the critical 
infrastructure communications networks that support the safe, reliable 
and secure delivery of essential services to the public at large.
    Since 1948, UTC's primary focus has been protecting and promoting 
the private internal communications of the nation's critical 
infrastructures. These communications networks are designed, built and 
operated to the highest standards--which must exceed those available on 
consumer-oriented commercial service networks. They are used for 
routine dispatch, emergency restoration and for remote monitoring and 
control of valves, switches and systems, among other functions. As 
such, these networks are essential to protect the safety of life, 
health and property and cannot be compromised.
    To help its members ensure the reliability of the basic services 
they provide, UTC seeks to protect their rights as licensees of radio-
frequency spectrum and to gain CI access to new spectrum as needed. UTC 
also tries to protect members' rights over their own infrastructure to 
ensure its safety, to enable their opportunities to use and provide 
telecommunications services as desired, and to assist members with 
their move to more advanced technology, ``smart grids,'' and compliance 
with homeland security responsibilities. In these efforts, UTC works 
with the Federal Communications Commission, the Federal Energy 
Regulatory Commission, Congress, the Departments of Commerce, Energy 
and Homeland Security and other agencies and offices--including state 
governments--as needed.
    UTC also represents the interests of utility members that choose to 
act as facilitators and providers of telecommunications services. As 
facilitators, UTC's members provide capacity services on their fiber 
networks and the poles, ducts, conduit and rights-of-way that they own 
or control, or wireless collocation on their communications or 
transmission towers; others are engaged in municipal networks or are 
deploying Broadband over Power Line systems for internal applications 
or commercial services. As providers of telecommunications services, in 
many cases UTC's members offer the only source of advanced 
communications capabilities in a community. UTC supports a pro-
competitive, deregulatory national policy framework by advocating 
telecommunications competition among all providers.
    In its sixty-two year history, UTC has grown into a global 
federation of industry and affiliated trade association members in 
Canada (UTC Canada), Europe (European UTC) and South America (Aptel). 
In addition, the nation's major critical infrastructure trade 
associations--including the American Gas Association (AGA), American 
Public Power Association (APPA), American Water Works Association 
(AWWA), Edison Electric Institute (EEI), Interstate Natural Gas 
Association of America (INGAA), the National Rural Electric Cooperative 
Association (NRECA) and the American Petroleum Institute (API--are 
affiliated members of UTC.
    As part of our federation mission, UTC spearheads the Critical 
Infrastructure Communications Coalition (CICC). CICC is a policy-
focused group which recognizes the commonality of interests among all 
critical infrastructure industries--energy, water, railroads, petroleum 
and natural gas production and oil pipelines--in providing and 
maintaining the nation's safe, efficient and reliable delivery of 
essential public services. In addition to the aforementioned 
organizations, CICC enjoys the support of the Association of American 
Railroads (AAR), the National Association of Water Companies (NAWC), 
and the Association of Oil Pipe Lines (AOPL).
Allocation of the 700 Mhz D Block to Public Safety
    UTC supports the allocation of the 700 MHz D Block to public 
safety, with certain qualifications noted below, for the following 
reasons:

        1. A nationwide interoperable public safety wireless broadband 
        network must be built to meet public safety's needs for 
        resiliency, reliability, redundancy and ubiquity; it cannot be 
        made to piggyback on other networks that do not satisfy those 
        requirements or be forced to negotiate costly agreements to 
        provide the priority access it requires during emergencies.

        2. Public safety must have the ability to expand its 
        communications capabilities to incorporate bandwidth intensive 
        improvements in technology to perform their mission critical 
        functions more efficiently and cost-effectively. This is a rare 
        opportunity to allocate 20 MHz of contiguous bandwidth to 
        provide for the long-term needs of public safety; otherwise, 
        should future bandwidth requirements require more spectrum than 
        the 10 MHz currently allocated to public safety, the nation 
        will return to the times of patchworked systems and fractured 
        equipment markets.

        3. Public safety should be able to control with whom it 
        partners to build and operate the nationwide interoperable 
        wireless broadband network, and not be forced to deal with a 
        spectrum license holder whose business model may be 
        fundamentally incompatible with public safety.

    UTC's support, however, is predicated on several qualifications:

    1. Congress should maximize, not restrict, partnership 
opportunities for public safety in the build-out and operations of a 
nationwide interoperable wireless broadband network.

    Congress should not dictate a preference for a specific type of 
communications infrastructure, or specify technical operational 
parameters which would restrict the ability of local, state and 
regional public safety entities to: (1) partner with whomever best 
meets their construction and operational needs and (2) leverage 
existing financial and infrastructure resources. Additionally, a 
network built on spectrum owned by others or controlled by those who do 
not share common network requirements or similar business models 
minimizes public safety's ability to control costs and deployment 
timetables to serve the more rural areas where the need to communicate 
is most urgent.
    Rather, Congress' proper role is to dictate the national policy 
upon which the network will be built, namely, nationwide 
interoperability, reliability, resiliency, redundancy and ubiquity. How 
those policy goals are met should be determined by public safety 
according to their circumstances and needs.
    In particular, the language in S. 3756 which requires backward-
compatibility with existing commercial 2G and 3G networks should be 
stricken. This requirement may be an appropriate way to ensure adequate 
capacity for public safety by enabling roaming onto existing commercial 
networks where such infrastructure currently exists. But, in areas 
where there is no such commercial infrastructure, or when public safety 
chooses to partner with other, noncommercial providers, to build or 
operate the network, the requirement for backward compatibility is 
inappropriate. As Chairman Rockefeller noted during the hearings, ``71 
percent of West Virginians have no access to cell service because 
commercial providers won't put up the towers to provide coverage.'' 
Further, such a requirement may actually preclude public safety from 
partnering with anyone other than a commercial provider and may cause 
public safety, or its preferred partner, to incur additional 
unnecessary expenses to comply with the requirement.
    Utilities and public safety share common communications network 
characteristics and functional requirements, as more fully explained 
later in Supplementary Information section of this statement. The FCC's 
National Broadband Plan noted those similarities:

        The wide-area network requirements of utilities are very 
        similar to those of public safety agencies. Both require near 
        universal coverage and a resilient and redundant network, 
        especially during emergencies. In a natural disaster or 
        terrorist attack, clearing downed power lines, fixing natural 
        gas leaks and getting power back to hospitals, transportation 
        hubs, water treatment plants and homes are fundamental to 
        protecting lives and property. Once deployed, a smarter grid 
        and broadband-connected utility crews will greatly enhance the 
        effectiveness of these activities.\1\
---------------------------------------------------------------------------
    \1\ Report to Congress, A National Broadband Plan for Our Future, 
FCC, p. 252-253 (March 16, 2010), available at http://
www.broadband.gov/download-plan/.

    Utilities have built and operated private, internal communications 
networks as the most efficient and cost-effective means to meet their 
mission critical function: the safe and reliable production, 
transmission and distribution of energy and water. Requiring backward 
compatibility with commercial networks would effectively eliminate the 
opportunities for public safety to partner with utilities in the build-
out and operations of the nationwide broadband network, despite the 
synergies between these two communities.
    The FCC has cited the unique public interest benefits of shared 
utility/public safety networks when granting waivers in the 800, 900 
and LMR bands, including: (1) Improved utility communications and 
interoperability with public safety; (2) Cost-savings; (3) Increased 
coordination with security and public safety personnel; (4) Enhanced 
crew safety; (5) Prompt repair of power systems; (6) Impact on public 
safety of aging utility equipment and network infrastructure; and (7) 
That utilities support and sometimes respond before public safety when 
emergencies occur. The FCC's National Broadband Plan encouraged the 
leveraging of utility infrastructure and allowing utilities to share 
the 700 MHz band, thereby reducing costs and providing options for the 
public safety community to leverage commercial networks, private 
networks, or both.\2\
---------------------------------------------------------------------------
    \2\ Id., p. 253.
---------------------------------------------------------------------------
    And finally, this type of technical requirement may act to vitiate 
current agreements between public safety and utilities in terms of 
build-out and use agreements, such as that outlined in a waiver filed 
by the State of Nevada on behalf of a myriad of public safety entities 
and NV Energy for a network in the 700 MHz band allocated to public 
safety,\3\ or have a chilling effect on negotiations that may already 
be underway in other parts of the country between public safety and 
other noncommercial service providers.
---------------------------------------------------------------------------
    \3\ See http://fjallfoss.fcc.gov/ecfs/document/view?id=7020458038.

    2. Congress should encourage innovation and regional flexibility 
for public safety to execute shared use and access agreements to meet 
regional needs and circumstances, including priority access and 
---------------------------------------------------------------------------
preemption on the network.

    In its National Broadband Plan (NBP), the Federal Communications 
Commission (FCC) recommended that public safety should be allowed to 
enter into agreements with utilities on uses and priorities. Although 
the network will take years to build, carrying critical traffic from 
multiple users can help lower costs for all.\4\
---------------------------------------------------------------------------
    \4\ Ibid. p. 315.
---------------------------------------------------------------------------
    One of the essential components of a nationwide public safety 
broadband network is reliability. Preemption or priority access implies 
that the network is fully functional under all conditions. As stated by 
a public safety official during the hearings, ``Preemption on a network 
that is down does not help public safety.'' \5\
---------------------------------------------------------------------------
    \5\ Jeffrey Johnson, Chief of the Western Fire Chiefs Association 
and Former President of the International Association of Fire Chiefs, 
Salem, Oregon.
---------------------------------------------------------------------------
    The differences in network performance and resiliency of commercial 
networks compared to utility private, internal networks were 
highlighted in an FCC report on communications network performance 
following Hurricane Katrina.\6\ The FCC found that utility networks not 
only continued to operate during hurricane conditions but, in general, 
continued to operate afterwards. By contrast, the commercial cellular 
networks had 20 percent of their cell sites down a week after 
hurricane.\7\ Those findings were confirmed by an independent UTC 
survey of utilities in the impacted areas.\8\
---------------------------------------------------------------------------
    \6\ See Final Report of the FCC's Independent Panel Reviewing the 
Impact of Hurricane Katrina on Communications Networks at http://
www.fcc.gov/pshs/docs/advisory/hkip/karrp.pdf.
    \7\ Id. at 9.
    \8\ Hurricanes of 2005: Performance of Gulf Coast Critical 
Infrastructure Communications Networks; United Telecom Council; 
November 2005.
---------------------------------------------------------------------------
    In sum, public safety should have the flexibility and authority to 
determine priority use and appropriate preemption protocols based on 
its needs according to the particular circumstances, not by Congress. 
Of course, use agreements of this type assume that the network will be 
operational when needed the most.
Supplementary Information
    UTC would also like to take this opportunity to provide some 
additional information to assist the Committee in its deliberations.
Utilities and Public Safety Share A Common Mission and Business Model 
        in Design, Deployment and Operations of a Communications 
        Network

    The communications networks operated by utilities and public safety 
are essential to meet their common mission: the protection of life, 
safety and property. Utility field crews are among the first to respond 
to emergencies, working side-by-side with public safety personnel, to 
protect the public from downed wires and the consequences of power 
outages, and to repair and restore essential public services, including 
clean water. In fact, utility communications were designated ``public 
safety radio services'' under the Balanced Budget Act of 1997, 
recognizing the key role of utilities in the emergency response 
effort.\9\ Moreover, utilities have been classified as ``essential 
service providers'' under the Robert T. Stafford Act for coordination 
of emergency response efforts.\10\
---------------------------------------------------------------------------
    \9\ P.L. 105-33, Title III Stat. 251.
    \10\ P.L. 93-228, Sec. 427 (42 USC 5189(e)).
---------------------------------------------------------------------------
    This commonality of purpose means that public safety and utilities 
use a common business model when constructing and operating a 
communications network: they must be able to communicate wherever 
emergencies may occur and the lives and safety of the public and 
utility line crews are at risk, whether it be rural or urban or in 
mountainous or flat terrain. Network design and the deployment 
timetable are driven by the needs of public safety to protect the 
public and of utilities to ensure worker and public safety and to 
provide reliable power and water. In short, communications 
infrastructure investments by public safety and utilities are not based 
on maximizing subscriber revenues, as are commercial communications 
service providers, but to meet mission critical needs. In fact, the 
business model of utilities and public safety and that of commercial 
service providers appear fundamentally incompatible with each other.
Public Safety and Utilities Share Common Communications Needs
    For decades, utilities have built, maintained, and operated their 
own private, internal communications networks for mission critical 
functions because of the need for greater resiliency, reliability, 
redundancy and coverage than can be provided by commercial 
communications networks, especially in rural or unpopulated areas.
    These are the same design and operational requirements of a public 
safety network, as cited in the testimony by Mr. Jeffrey Johnson, Chief 
Executive of the Western Fire Chiefs Association and former President 
of the International Association of Fire Chiefs before the Committee, 
namely:

  <bullet> Reliability: The network must remain operational even when 
        the power is out for days or weeks at a time and when 
        commercial networks are unavailable for whatever reason, 
        including lack of back-up power at cell sites, infrastructure 
        damage, or inability to meet the surge in communications 
        demand;

  <bullet> Redundancy: The network must have back-up facilities to 
        maintain communications if any portion of the network is 
        compromised;

  <bullet> Resiliency: The network must be able to operate under 
        adverse conditions, including hurricanes, ice storms, floods or 
        manmade disasters; and

  <bullet> Ubiquity: The network must operate everywhere emergencies 
        may occur, even in the most rural, less-populated and rugged 
        terrains.
Public Safety and Utilities Share Common Communications Deficiencies
    Utilities do not enjoy access to any dedicated spectrum to meet 
their unique communications needs. In contrast, over 400 MHz has been 
allocated to commercial services, and more than 90 MHz to public 
safety.
    Despite the differences in spectrum availability, the spectrum 
assignment framework used by the FCC to allocate spectrum for 
designated services has led to serious deficiencies for both public 
safety and utilities. These include:

        Patchworked systems with no interoperability--Utilities have 
        shared access to a total of 30 MHz of spectrum in disparate 
        bands depending on what spectrum is available in a given 
        geographic area, resulting in a lack of interoperability during 
        emergencies with and among out-of-area field crews who assist 
        restoration efforts and with public safety personnel. This same 
        problem is shared by public safety amongst themselves as well 
        as with utilities with whom they need to coordinate emergency 
        response efforts.

        Fractured market for technology and equipment manufacture--With 
        no access to sufficient spectrum to meet their needs, each 
        utility has had to design its network based on the spectrum 
        available, leading in many cases to proprietary and thus more 
        expensive solutions to their communications needs. Public 
        safety has suffered from these same deficiencies.

        Insufficient bandwidth--Increasingly sophisticated situational 
        awareness tools (including video, mobile data, and personnel 
        and resource management) require broadband capabilities that 
        cannot be supported by available spectrum. And with the advent 
        of Smart Grid, the lack of a utility-grade broadband network 
        sufficient to handle distributed generation, integration of 
        renewable energy sources, load balancing efficiencies, electric 
        vehicle deployment and consumer control over energy use will 
        become acute.

    In sum, the testimony of The Honorable Annise Parker, Mayor of 
Houston, Texas pertaining to public safety communications is equally 
applicable to utilities:

        To date, public safety has been granted only small sections of 
        spectrum over time, but never enough to consolidate 
        communications into a single frequency band. This means that 
        when multiple agencies respond to an event, they cannot 
        communicate with each other because they each use radios that 
        operate on different portions of the spectrum. Many police 
        carry multiple radios just to ensure they can communicate with 
        other responding agencies during emergencies.\11\
---------------------------------------------------------------------------
    \11\ Written testimony of The Honorable Annise Parker, p. 4, 
available at: http://commerce.senate.gov/public/
index.cfm?p=Hearings&ContentRecord_id=91233a4d-cbed-4b43-87bc-
0983538b9318&Statement_id=05ae28ca-1527-4147-9313-
7a5d5222ef44&ContentType_id=14f
995b9-dfa5-407a-9d35-56cc7152a7ed&Group_id=b06c39af-e033-4cba-9221-
de668ca1978a&Mo
nthDisplay=9&YearDisplay=2010.
---------------------------------------------------------------------------
Public Safety and Utilities Need Interoperable Communications Both 
        Within as well as Across Sectors----
    As noted above, utility emergency restoration crews are among the 
first to respond to emergencies, working side-by-side with public 
safety personnel, to protect the public from downed wires and the 
consequences of power outages, and to repair and restore essential 
public services, including clean water.
    During large scale emergencies, utility personnel from all parts of 
the country converge on the scene, pursuant to mutual aid agreements. 
Because of the fractured nature of the current spectrum available to 
utilities for mobile communications, crews cannot communicate with each 
other or with the impacted area crews, thus leading to inefficiencies 
and dangerous situations in the coordination of power restoration 
efforts and in personnel and other resource allocation decisions.
    In addition, utility personnel cannot communicate with public 
safety to coordinate emergency response efforts. UTC's report on 
utility network performance following Hurricane Katrina found that 
there was little or no formal coordination with state or local agencies 
or public safety organizations during or after the storms.\12\ Lack of 
interoperability between utilities and public safety causes public 
safety to allocate personnel to babysit downed wires until crews can be 
dispatched, or lines are de-energized before public safety can aid 
those who are hurt, disabled or in need of medical assistance. A common 
communications platform built to utility (and public safety) grade 
standards for those involved in emergency response, particularly in the 
immediate aftermath of the disaster, would mitigate consequences by 
more efficient resource allocation and a more timely response.
---------------------------------------------------------------------------
    \12\ Id., p. 3.
---------------------------------------------------------------------------
    The testimony of Stephen McClure, Director of Jackson County 
Emergency Medical Services in Ripley, West Virginia underscores this 
point and is equally applicable to utility communications:

        ``A unique opportunity exists to change the paradigm of public 
        safety communications where multiple frequency bands and 
        incompatible technologies create obstacles to interoperability 
        and perpetuate inefficiency. The ultimate goal and vision of 
        the public safety broadband network is to learn from the 
        mistakes of the past and plan for a future in which wireless 
        broadband networks deployed on a common frequency band--using a 
        common technology platform--provide public safety with the 
        tools they need for the twenty-first century.'' \13\
---------------------------------------------------------------------------
    \13\ Written testimony of Stephen E. McClure, Director, Jackson 
County Emergency Medical Services, Ripley, West Virginia, p. 5 
available at http://commerce.senate.gov/public/index
.cfm?p=Hearings&ContentRecord_id=91233a4d-cbed-4b43-87bc-
0983538b9318&Statement_id
=4cb696da-2a4a-4e17-825c-8fa925516db9&ContentType_id=14f995b9-dfa5-
407a-9d35-56cc71
52a7ed&Group_id=b06c39af-e033-4cba-9221-
de668ca1978a&MonthDisplay=9&YearDisplay=
2010.
---------------------------------------------------------------------------
Leveraging of Existing Utility and Public Safety Resources Can Reduce 
        Build-out and Operational Costs
    There are several areas in which the costs of a nationwide 
interoperable wireless broadband network can be covered through the use 
of current utility and public resources, including:

        Infrastructure: Utilities currently operate extensive 
        communications systems, with tower sites throughout their 
        service territory. When combined with public safety 
        infrastructure, broadband network construction will be limited 
        to filling in the coverage gaps, not built from the ground up, 
        especially in rural areas.

        Equipment Costs: Due to the fractured nature of the current 
        communications scheme for utilities and public safety, 
        equipment markets are smaller and non-homogeneous, and in many 
        cases only proprietary solutions are available. A broadband 
        network for use by both public safety and utilities would 
        expand the potential equipment market based on common standards 
        and drive costs down for all.

        Financial Resources: Numerous federal monies are already 
        available to assist in network construction and operations. In 
        addition to those mentioned in the written testimony of Stephen 
        McClure,\14\ a portion of grants awarded under the Smart Grid 
        (SG) Investment Grants program administered by the Department 
        of Energy (DOE) are being used by utilities for communications 
        infrastructure investments.
---------------------------------------------------------------------------
    \14\ Ibid., p. 4-5.

    A study conducted by UTC in June 2009 revealed that utilities will 
be spending $5.2 billion in 2010 alone (including DOE grants) for SG 
deployment, much of which for communications infrastructure to enable 
SG.\15\ Moreover, state and local government have appropriated millions 
of dollars to improve public safety communications capabilities on 
patchworked systems,\16\ scarce resources which can be better spent on 
a new common broadband platform.
---------------------------------------------------------------------------
    \15\ ``Utilities Telecom Spending Market Forecast,'' a research 
study conducted by the Utilities Telecom Council published in June 
2009.
    \16\ Oral Testimony of The Honorable Annise Parker, Mayor, Houston, 
Texas during the Committee hearings.
---------------------------------------------------------------------------
    We thank the Committee for the opportunity to submit this Statement 
for the Record. Please contact the following individuals who would be 
pleased to answer any questions or provide any additional information 
the Committee's requires during its consideration of this issue: Bill 
Moroney, President and CEO, UTC at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d0dbdede9cdfddc0dddcd7cbf2c7c6d19cddc0d5">[email&#160;protected]</a>, 202.833.6801; 
Michael Oldak, Vice President and General Counsel, UTC at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f19c989a94df9e9d95909ab1848592df9e8396">[email&#160;protected]</a>, 202.833.6808, or Prudence Parks, Director of 
Government Relations, UTC at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="79090b0c1d1c171a1c5709180b120a390c0d1a">[email&#160;protected]</a>,org, 703.623.4026.
                                 ______
                                 
                                                 September 23, 2010
Hon. John D. Rockefeller IV,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison:

    On behalf of the 19,000 cities and towns represented by the 
National League of Cities, thank you for the opportunity to submit this 
letter and express our support for the Public Safety Spectrum and 
Wireless Innovations Act of 2010, S. 3756 (the Act). This bill would 
reallocate the portion of 700 MHz radio spectrum known as the ``D 
Block'' to public safety so that a national interoperable public safety 
communications network can become a reality.
    For years, state and local first responders have sought to build a 
national interoperable communications network that will provide secure 
transmission of real-time voice, video, and other data. Currently, 
first responders in the United States lack adequate secure broadcast 
spectrum to achieve this goal, in part, because public safety entities 
have been granted only small sections of spectrum and never enough to 
consolidate communications into a single frequency band. This lack of 
substantial, secure bandwidth on a national scale has hampered our 
first responders' efforts to consolidate public safety communications. 
The result is a patchwork of public safety communications systems, 
where neighboring jurisdictions--and often, local police and fire 
personnel--cannot communicate with one another or share information 
effectively.
    By reallocating the D Block to public safety and creating a fund 
for the construction, maintenance, and operation of such a network, the 
Public Safety Spectrum and Wireless Innovations Act would provide a 
one-time opportunity to improve our country's emergency response system 
by creating a modern interoperable broadband network that would quickly 
distribute information to first responders, doctors, public 
institutions, and private citizens.
    In addition to reallocating the D Block, the Act calls for the 
creation of a construction grant fund and a maintenance and operation 
grant fund for the public safety interoperable broadband network. As 
currently drafted, the legislation permits only states to directly 
request and receive grant funding unless they delegate that authority 
to an agency or political subdivision. To ensure an accelerated 
deployment of this network, we urge you to also include a provision 
that would allow local governments or regional public safety agencies 
to directly request and receive funds to deploy, maintain and operate 
the 700 MHz nationwide public safety interoperable broadband network 
within their jurisdiction. Of course, we concur that any local plan is 
to be coordinated with the state and conform to federal standards. This 
approach will ultimately benefit the entire national interoperable 
broadband system by expediting the construction of the system and 
providing a foundation for rapid expansion across a region.
    The National League of Cities looks forward to working with you to 
enact the Public Safety Spectrum and Wireless Innovations Act of 2010 
and ensure that we develop a nationwide interoperable public safety 
communications network that will guarantee first responders receive the 
information they need when lives are at risk.
            Sincerely,
                                           Donald J. Borut,
                                                Executive Director,
                                             National League of Cities.
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
